<html>
<title> - NO CHILD LEFT BEHIND: IMPROVING EDUCATION IN INDIAN COUNTRY</title>
<body><pre>[Senate Hearing 110-726]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-726
 
                    NO CHILD LEFT BEHIND: IMPROVING 
                      EDUCATION IN INDIAN COUNTRY

=======================================================================

                             FIELD HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

EXAMINING THE NO CHILD LEFT BEHIND ACT, FOCUSING ON IMPROVING EDUCATION 
                           IN INDIAN COUNTRY

                               __________

                     AUGUST 10, 2007 (Santa Fe, NM)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate


                     U.S. GOVERNMENT PRINTING OFFICE
37-293 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming,
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma

           J. Michael Myers, Staff Director and Chief Counsel

           Katherine Brunett McGuire, Minority Staff Director

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                               STATEMENTS

                        FRIDAY, AUGUST 10, 2007

                                                                   Page
Bingaman, Hon. Jeff, a U.S. Senator from the State of New Mexico, 
  opening statement..............................................     1
Abeyta, Joseph, Superintendent, Santa Fe Indian School, Santa Fe, 
  NM.............................................................     1
Mountain, Hon. James, Governor, The Pueblo de San Ildefonso, NM..     4
    Prepared statement...........................................     6
Garcia, Hon. Veronica C., Secretary of Education, Santa Fe, NM...     8
    Prepared statement...........................................    11
Wright, VerlieAnn Malina, President, National Indian Education 
  Association, Washington, DC....................................    13
    Prepared statement...........................................    16
Benally, Maggie, Principal, Window Rock Unified School District, 
  Fort Defiance, AZ..............................................    22
    Prepared statement...........................................    24
Gutierrez, Bernice, Teacher, Wilson Middle School, Albuquerque 
  Public Schools, Albuquerque, NM................................    26
    Prepared statement...........................................    30
Pasena, Samantha, Student, Santa Fe Indian School, Santa Fe, NM..    31

                                 (iii)

  


      NO CHILD LEFT BEHIND: IMPROVING EDUCATION IN INDIAN COUNTRY

                              ----------                              


                        FRIDAY, AUGUST 10, 2007

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                              Santa Fe, New Mexico.
    The committee met, pursuant to notice, at 9:30 a.m., in 
Santa Fe Indian School, Sante Fe, New Mexico, Hon. Jeff 
Bingaman, presiding.
    Present: Senator Bingaman.

                 Opening Statement of Senator Bingaman

    Senator Bingaman. Let me make a short statement, and then 
defer to our host here, Joe Abeyta, and have him make any 
statement that he would like on behalf of the Santa Fe Indian 
School.
    This is a hearing of the Senate Committee on Health, 
Education, Labor, and Pensions, otherwise known as the HELP 
Committee. Senator Kennedy authorized me to have this hearing, 
he is the Chairman of our committee.
    In 2002, Congress enacted the No Child Left Behind Act, 
which, in fact, was the name we attached to the amendments 
enacted that year to the Elementary and Secondary Education Act 
of 1965. It's been over four decades that the Federal 
Government has been involved in trying to assist States and 
school districts, and schools around the country in improving 
education.
    We are now preparing to reauthorize that bill again, and 
the purpose of this hearing is to identify ways that Congress 
can improve on the law, make it work better--particularly for 
Native American students. And that is the focus of our hearing.
    I have more of a statement to make here, but let me just 
interrupt at this point, and indicate my thanks to Joe Abeyta 
for his hosting this hearing, and all of the help and advice 
that he's provided to me in the Senate over many years. Santa 
Fe Indian School is the ideal place to host a hearing of this 
type, and he was willing to do that, and we very much 
appreciate it.
    Let me call on him to make any statement he would like at 
this point, do you want to use this microphone?

  STATEMENT OF JOSEPH ABEYTA, SUPERINTENDENT, SANTA FE INDIAN 
                      SCHOOL, SANTA FE, NM

    Mr. Abeyta. I'm going to be fine, Senator.
    I would first like to sincerely thank you for coming to 
Santa Fe and taking the time to host these very important and 
significant hearings regarding our children, and our concern 
for their educational well-being.
    I need to acknowledge the fact that for 30 years--it's been 
a long time, Senator. You're not a recent visitor to the issue 
of Indian education, but from the very beginning, you've been 
available, been sensitive, and certainly been supportive. And I 
think that this morning, if everyone has not had an opportunity 
to see the newspaper, there is this incredible article that 
discusses--is it $33.6, not million, billion dollars--that the 
Senator is being thanked for by the President of the United 
States in getting through the Congress.
    Now, I don't know Senator if applause is appropriate at 
these kinds of hearings, but----
    [Applause.]
    Thank you. In the tradition of our Pueblo community, and in 
the tradition of certainly, Santa Fe Indian School, I'd like 
to--with your permission--ask Mr. Pena, who is a former 
Chairman of the all-new Pueblo Council and former Governor of 
his Pueblo to please do the invocation for us this morning.
    And I would ask everyone to please stand.
    [Invocation given in Native American dialect.]
    Senator Bingaman, thank you very much.
    Just very briefly, Senator, I've been at the school for 30 
years, and people are curious about my longevity. And one of 
the reasons is, I try not to forget, I work hard at remembering 
the people that I work for.
    I'd like to acknowledge, please, if you'll allow me, 
several Governors that are present this morning: Governor 
Everett Chavez, from San Domingo Pueblo.
    Senator Bingaman. All right, good morning.
    Mr. Abeyta. You know Governor Mountain from San Ildefonso.
    Senator Bingaman. Good morning.
    Mr. Abeyta. Governor Pena, of course, is a former Governor.
    Members of our Board of Trustees, our former Governor Yobi 
Will from the Sukey Pueblo. The President of the San Trena 
School Board of Trustees is a former Governor also, Mr. Martez.
    With that, I'm looking forward to an opportunity to visit 
with you about some major dollars that we need, Senator 
Bingaman.
    [Laughter.]
    I hope you'll be of assistance.
    [Laughter.]
    It's truly a pleasure, and it's a special honor, and we 
have such a respect for you and all that you've done for all of 
us--not just Pueblo people, but Indians throughout the United 
States of America--people all over. We respect you. Thank you.
    Senator Bingaman. Well, thank you very much, Joe, for your 
kind hospitality and your leadership here at the school, over 
many years.
    Let me go ahead and make a few more comments, here, before 
we start on the testimony about--just sort of to set the 
context for where we are with this reauthorization effort.
    I think most of us agree that, by the time we start 
measuring academic achievement of students in the third grade, 
there already exists an achievement gap. And, unfortunately, it 
is pretty clear that it's a gap between low-income and minority 
students, and much more affluent students, or students from 
much more affluent families.
    In an effort to close the achievement gap, and with broad 
bipartisan support, we did enact, in 2002, the No Child Left 
Behind provisions.
    It starts with the fundamental principle that every child 
can learn, and needs to be given that opportunity to a much 
greater extent than we've done in the past. No Child Left 
Behind expanded the requirements for use of standards and 
assessments to measure student academic achievement.
    Now, States, and school districts and schools are held more 
accountable for academic achievement of all students, and for 
closing the achievement gap that I've referred to--the gap 
between the children of affluent families, and the children of 
lower income, or minority families.
    This, by all means, is a great challenge, and there's been 
a lot of controversy involved in the effort to implement this. 
Some of the concerns that have been expressed are very valid. 
States and school districts, obviously, have not received the 
resources that that legislation identified as necessary from 
the Federal Government to help. I believe that the inadequate 
level of funding we've seen over the last few years have 
undermined some of the best intentions of teachers and 
administrators around the country.
    Fortunately, that's beginning to change. This year, we're 
looking at a billion dollar increase in title I funding, $500 
additional for school improvement activities. There are a 
number of provisions in the law that need to be changed, they 
need to be rewritten. And, I'm the first to acknowledge that. 
All States should be allowed to develop growth models. Schools 
should be recognized for the academic growth of their students 
as they progress to be more proficient in their academic 
skills.
    We need to recognize that one-size-does-not-fit-all, and 
that the school improvement needs of one school may be very 
different from the school improvement needs of another school. 
And No Child Left Behind has not addressed that distinction, 
adequately.
    We need to do more to help States develop the proper 
assessments and accommodations for students with disabilities. 
And we support the States efforts to develop better assessments 
and tools to measure academic achievement of those who are just 
learning the English language.
    Many Native American students are not proficient in English 
when they begin school, as their communities continue to speak 
their Native languages at home, as we want to see them 
continue.
    We also, I think--although these problems I just delineated 
are very real, I think we also should acknowledge that we are 
beginning to see some positive results from the legislation 
that was enacted in 2002. There's evidence that the achievement 
gaps between these various students is narrowing. No Child Left 
Behind has provided the means to measure that gap. In fact, 
before we had the provisions of No Child Left Behind, we did 
not even track this achievement gap between Native American 
students and their peers. That's one acknowledgement that we 
need to recognize.
    Clearly we have some substantial problems with the gap in 
achievement continuing. Last year, the figures I have are that 
about 35 percent of Native American fourth graders were scoring 
at the ``proficient'' level on New Mexico reading assessment. 
That compares with something in the range of 70, 72 percent for 
Anglo fourth graders. There's similar gaps for students in 
math, and for students at the eighth grade level. We have 
significant gaps in college readiness among New Mexico's Native 
American students and peers.
    While Native Americans made up approximately 12 percent of 
the student population in our State in 2006, only 5.5 percent 
of all students who took advance placement exams in our State 
were Native American.
    There are other challenges that we undoubtedly will hear 
about in the testimony we're about to receive.
    We have before us a very distinguished group of witnesses, 
and let me just indicate, we have the esteemed Governor of 
Pueblo de San Ildefonso, we have New Mexico Secretary of 
Education, she has worked hard on this set of issues during her 
entire tenure, the President of the National Indian Education 
Association, thank you very much for coming to attend this, and 
participate. We have a school principal from Window Rock, we 
have a teacher from Albuquerque, and most important, perhaps or 
not perhaps, I think, without a doubt--most important is a 
student. Thank you for being here.
    I look forward to hearing from all of the witnesses, and 
hopefully learning some things that we can take back to 
Washington and use as we try to re-write this legislation to 
make it more workable, and to make it serve the needs of the 
Native American population better.
    Let me just individually introduce the witnesses, and then 
we will have them testify, and then after all witnesses have 
testified, I'll have some questions that I'll want to ask.
    Our first witness is Governor James Mountain, he is 
Governor of the Pueblo de San Ildefonso, he's Chairman of the 
Eight Northern Indian Pueblo Council. Governor Mountain, why 
don't you lead off and give us your views. And if you could 
move that microphone over and bring it close to you, so all the 
people in the back can hear, that would be terrific.

STATEMENT OF HON. JAMES R. MOUNTAIN, GOVERNOR OF THE PUEBLO DE 
                       SAN ILDEFONSO, NM

    Mr. Mountain. With all due respect, Governors, Senator 
Bingaman, panel, distinguished panel guests, and members of the 
audience, thank you for having us here this morning, Senator.
    As you stated, I am James Mountain, I'm the Governor of the 
Pueblo de San Ildefonso. I am also honored to be the Chairman 
of the Governors of the Eight Northern Indian Pueblos Council, 
as well. I also serve as a shareholder of the all-Indian Pueblo 
Council. And it's an honor to be here, meeting with you this 
morning, in discussions of a very serious matter that is before 
us, in regards to the reauthorization.
    As you stated, Senator, there are several issues that are 
at hand, and that are being worked upon. What my testimony has, 
as I forwarded that to you--the gist of that, we have experts 
here, educators, and of course, as you said very importantly, 
and most importantly, is a student to testify on our behalf as 
well--is the fact that this No Child Left Behind Act, I'd like 
to try and summarize it in a sense that--I'm not one to jump to 
conclusions and criticize. I appreciate the intention and 
always look to give credit where credit is due--good, bad or 
ugly, fair or not fair, right or wrong.
    But the act, in my research and my interaction with this 
has had nothing but--I've come across nothing that would enable 
me to be a proponent of the act, in regards to our children, 
our Pueblo children, our fellow tribal children. You can look 
at some of the positive things, where some of the schools are 
diligently trying to meet the AYP measures.
    But what that leaves out is the lack of focus on the 
cultural measures. And, in my opinion, as I stated in my 
testimony is--what we are doing, once again, is copying 
history.
    And, what I mean by this is that, at a time that my father, 
my grandmother--our elders, our ancestors in the recent 
decade--the treatment of language in this is exemplified as far 
as the old measures of the prohibition and the relocation 
policies of old. That's how it seems to be coming across in our 
interactions where--although we've worked diligently on our 
end, and with your help, Senator, you've been a champion for 
our people--to encourage the State schools, here's a perfect 
example, the Indian School, of what it means to incorporate 
your language and culture into the education that our children 
receive, and allow our children to flourish.
    And it not only is our children, but it's also our fellow 
Hispanic children, and other minorities, as well. It also helps 
to educate our other non-Native fellow members, to enhance 
their understanding of our sacred tradition in our culture.
    My point is, Senator, is that if the measurements of this 
is focused strictly on reading and math--which are very 
important to us and our people, as well, we need to elevate 
those. But if we leave our language and our culture out of this 
component, and there is no focus from the discussions I've had, 
from trying to educate myself, and the background of this, on 
those specific areas, we're recreating history. And, it's had 
devastating effects, to this day.
    There are statistics out there where many tribes have had 
their language, and now we're down to just a few handfuls that 
have a full understanding of their language. And this detracts 
from some of the things that you have helped to champion, such 
as the Esther Martinez Act, through Congress, to revitalize 
language. And, if there's no focus, then basically we're going 
to be suffering once again.
    And we've had that tremendous impact upon our culture, as 
far as losing our language. And once we lose our language, we 
lose our culture. And basically, without being disrespectful--
it's genocide. It's killing our people. Because, if we can not 
be provided the tools, in a fair and just measurement that 
incorporates trying to educate our children, then we're getting 
held back, we're taking steps backwards.
    And that's why I make these statements as best as I can, in 
a respectful manner, but the truth of the matter is that, that 
is what is happening with the No Child Left Behind Act, as far 
as the cultural and language component.
    Because I can not make sense of the--I was forwarded a copy 
from the Powacki Valley Schools, which is where the majority of 
our children from San Ildefonso go, and our Tsuke kids go 
there, some of our Santa Clara children go there, even kids 
from Okiawinga attend there, as well. And a lot of our kids, of 
course, come here to the Indian school.
    But, with regards to the Powacki Valley Schools, the report 
that I received, and the need for areas of improvement, at the 
high school level, math and reading goals were not met by the 
Native American, and economically disadvantaged subgroups. It 
explicitly says that. That's a double negative for us.
    And, we can sit here all day and go over the statistics, I 
think we all understand the statistics, they're difficult 
measurements. The State has been a proponent saying that it's 
not helping our school districts. In a quote by our respected 
Secretary, Ms. Garcia--Dr. Garcia--is, in a TV interview, the 
week of August 13, she defined the distinction of the AYP as 
``meaningless.'' And I'm trying very hard to try some positive 
outcomes of this act. And Senator I can tell you today that as 
far as the function of this act upon our people, our Native 
American people, there's nothing I can say positive about it, 
at this time.
    And, I would encourage in moving forward, that if there's 
something that we can do, if there's more consultation, if 
there's more input that we can have inclusion on, on the moving 
forward on this, then please, help us--which is what you're 
providing today--help us understand how we can help you to get 
this in place, so that it meets the standards of all of our 
children, here in New Mexico. Because, as I stated--it's not 
meeting the needs of my Native, my Pueblo children, nor our 
tribal, fellow tribal children, as well.
    Thank you, Senator.
    [The prepared statement of Mr. Mountain follows:]

            Prepared Statement of the Hon. James R. Mountain

    Honorable Senator Jeff Bingaman, I am James R. Mountain, Governor 
of Pueblo de San Ildefonso. I am also Chairman of the Eight Northern 
Indian Pueblos Council, Inc. Board of Governors. I am honored and it is 
my pleasure to have this opportunity to come before this committee on 
behalf of my Pueblo People and share my thoughts and concerns about the 
impacts of the No Child Left Behind Act.
    While we appreciate the intent of the act, it is having tremendous 
unintended consequences. I want in the essence of time to focus on 
three areas as I know others will focus on teacher quality, testing, 
adequacy of funding, and the problems with standardized tests amongst 
other important and challenging issues.
    I want to begin by attempting to paint the landscape before No 
Child Left Behind by asking a few questions to put it into a context 
and draw some conclusions from these questions.

  COMPOUNDING EFFECTS/AFFECTS OF NO CHILD LEFT BEHIND ON THE EXISTING 
                      FAILURES YET TO BE RESOLVED

    If States like New Mexico were already underachieving and their 
schools seriously failing our Indian children as is evident by every 
conceivable measure before No Child Left Behind (NCLB), ``What could we 
reasonably conclude if the State argues that NCLB is compounding its 
situation with all other students? '' ``If the State is arguing that it 
cannot meet the demands of the unfunded mandates and we have argued 
that there has never been adequate funding to meet the needs of our 
Native children before NCLB, what else can we possibly delineate from 
this fact? '' If before No Child Left Behind, we argued that the 
standardized tests being used were culturally biased, then what now are 
we left to presume with the focus of testing under the new law? '' And 
now that there is a shift in the paradigm and the State as a matter of 
policy and with explicit language in the laws, accepts the fact that 
native language, culture and our history are important ingredients in 
our children's education and under NCLB, there is increased focus on 
reading, writing and math, which are the focus subjects tested under 
the law, ``What can we reasonably conclude with how teaching native 
language, culture and our history will be treated? '' ``How is the 
treatment of language, alone, that has been exemplified by language 
prohibition and relocation policies and laws, any different now, than 
the Federal policies of the past? '' Parents are making the same 
difficult choices our people were forced to make 30-40 years ago with 
devastating results that haunt us today. And, ``what can we reasonably 
conclude from the first Public Education's Department's 2005-2006 
Education Status Report that reflects that every 1 of the 23 
predominately Indian school districts failed to meet Adequate Yearly 
Progress? '' And 17 of the 23 school districts were designated as 
School Improvement districts for the 2006-2007 school year?
    This alone should compel the State to opt out of the No Child Left 
Behind Act. No Child Left Behind is in fact having the opposite affect 
of its supposed intent by leaving too many of our children behind at a 
tremendous cost and loss of our social capital, which is of utmost 
importance to the well-being of our future. It is morally and legally 
indefensible to allow this to happen.

     INCREASE IN DROP OUT RATES AS THE FIRST INDICATOR OF FAILURE--
                        ``THE SILENT EPIDEMIC''

    The ultimate tale of the effects of No Child Left Behind is 
reflected in the increasing rates of student dropouts and is being 
witnessed more and more often at an earlier age.
    The drop out rate for Native Americans is higher than the State 
average. It has often been called ``the Silent Epidemic.'' Under No 
Child Left Behind in 2005, you sponsored an attempt to restore funding 
for school dropout prevention programs that was targeted to be 
eliminated. In fact, it has been significantly reduced at a time when 
the need is at the highest point. The Administration argued that the 
loss of the drop out prevention dollars could be made up by using title 
I funds for prevention. You stated that it was clear, that to allow use 
of title I funds is insufficient to stem the tide. The ETS report which 
you cited in 2005 concluded that the failure to provide adequate 
resources for school dropout prevention is ``social dynamite.'' The 
response on the part of this Administration since the inception of No 
Child Left Behind has moved in the wrong direction. Its response is 
horribly inadequate and a breach of its fiduciary and ``Trust'' 
obligation.
    The impact of dropouts in our small communities at 6 percent can be 
devastating and the impact over time greatly magnifies. Ten dropouts in 
a community of less than 600 over 10 years is 60 people. These 60 
people have relationships and this impact then has a domino effect and 
begins to double. If the mean income of a drop out is less than $23,000 
per year, then it becomes evident to recognize that families cannot 
adequately survive. This then begins to create a vicious cycle that is 
hard to break. These dropouts become a critical mass of change agents 
in small communities. The economic impact is devastating and our small 
communities are not immune. Senator Bingaman, as you stated, ``. . . an 
educated workforce is the foundation for our future economic 
strength.''
    With the skyrocketing costs of living, the diminished level of 
support by IHS for health care, the costs of gas and transportation, 
the high unemployment rates, ``how are these people ever going to have 
a realistic chance at enjoying a true quality of life in one of the 
richest countries in the world? ''
    This Administration's rationalization with how to make up for the 

LACK OF FUNDS BY ROBBING PETER TO PAY PAUL BRINGS UP MY NEXT POINT.
                 INEQUITABLE DISTRIBUTION OF RESOURCES

    This present scenario with regard to school funding brings me to 
the next related point. As the Administration argued that the loss of 
dropout prevention dollars could be made up with title I dollars, it is 
precisely how in a State like New Mexico, it perpetuates an 
indefensible behavior of abuse in the use of resources inconsistent 
with legislative intent adding to the widening disparities. There is 
already a tremendous inequity at the State and local levels stemming 
from the blatant abuse in the use of Federal dollars intended to be 
utilized to address the glaring unmet needs of our Indian children 
instead of supplanting their operating budgets.
    Recent legislative audits of school districts and their use of 
State bilingual funds revealed such abuses. As a result of years of 
extensive field hearings conducted by Congress, it has been concluded 
that there were tremendous unmet needs of Indian children in public 
schools, Congress increased the base funding for the regular program by 
25 percent and 50 percent for special education programs. After Tribal 
Leaders and school Administrators argued that the additional add-on of 
25 percent to the regular program and 50 percent for special education 
programs should be exempted from the Equalization Formula to be 
utilized to address those needs as determined jointly by the local LEA 
and local Indian Education Committees as required, the recent reports 
reflect that those exempted resources are utilized for everything else 
except to enhance programs for our native children with very little or 
no involvement by the local Indian Education Committees.
``New Mexico First'' Recommendations
    In conclusion, New Mexico First which you and Senator Domenici 
created to bring New Mexicans together to deliberate on issues 
important to New Mexico's future convened a Town Hall Meeting in 1998 
to focus on American Indian issues in New Mexico. To the surprise of no 
one, it prioritized the unmet needs of Indian children in education as 
the immediate concern.

    Among the seven recommendations, below are two priorities that 
continue to elude us.

    (1) Quality education should be consistent regardless of the 
child's community or location of the school, with particular emphasis 
on improving American Indian student achievement.
    (2) Tribal leaders and all educational leaders should examine State 
funding for public schools and the factors taken into consideration to 
equalize funding for all schools serving American Indian students.

    While we have made great strides in recent years, our inability to 
resolve these fundamental and substantive issues can only bring us to 
the conclusion that No Child Left Behind significantly compounds an 
already difficult set of circumstances that adversely affects our 
tribal communities and severely diminishes our children's likelihood of 
reaching their full potential and realizing success in these school 
systems. It expands into an area where there has been very little 
discussion and it therefore becomes the very essence of infringement 
upon our tribal sovereignty. We are caught up in a web that indirectly 
neutralizes and minimizes our fiduciary responsibility to provide a 
meaningful and fully effectuating quality of education for our 
children. Fulfilling our vision and mission of education for our 
purposes have never been so far removed as I feel it is today, as a 
result of usurping our rights in the governance and funding of school 
programs.
    I thank you for the opportunity to share my thoughts and concerns 
Senator Bingaman and thank you for the opportunity you are providing 
through this forum to contribute towards a better and enlightened 
understanding regarding the scope of the impact of No Child Left Behind 
Act upon my Pueblo students and my people.

    Senator Bingaman. Thank you, Governor, very much, for your 
heartfelt testimony. And we will try to get--in the question 
part of this hearing, try to get some more detail as to how you 
think we ought to proceed.
    Let me now call on our Secretary of Education for the State 
of New Mexico, Dr. Veronica Garcia. She has been focused on 
this set of issues a long time, and probably has more hands-on 
knowledge of how these requirements are being implemented--need 
to be revised here in New Mexico--than anyone.
    Dr. Garcia, thank you for coming.

        STATEMENT OF HON. VERONICA C. GARCIA, SECRETARY 
                   OF EDUCATION, SANTA FE, NM

    Ms. Garcia. Thank you, Senator Bingaman. Esteemed 
Governors, past Governors, Superintendent Abeyta, fellow 
committee members, and members of the audience, I want to thank 
you for the opportunity to speak to you, and for you to take 
back this information to your committee, and for coming to us--
I really appreciate you doing that.
    I want to preface my remarks by saying, first, that I truly 
believe in the spirit of No Child Left Behind. I agree that for 
years we continued to see children, based on where they lived, 
continue to lag behind on their educational attainment. And 
when I say ``based on where they live,'' I often think that 
when we look at these various subgroups, the common denominator 
appears to be poverty, and also language for students are 
tested unfairly, when they don't have the appropriate language 
skills--academic English language skills.
    English language learners, poor children, have significant 
hurdles in attaining proficiency, and we must do all we can to 
support them to attain this proficiency. This is particularly 
true for our Native American students, who many live in rural, 
isolated areas of the State, and may not be proficient in 
English when they enter school.
    NCLB focuses on accountability, and I think that that's 
important. What it doesn't focus on are the impacts of poverty, 
and what can be done at the Federal level to help ameliorate 
that.
    We need to look at, what are things that these children 
need when they come to school, that come from poverty, that 
have not had broad-based experiences before they come to school 
in terms of Pre-K, or breakfast in a school, or after-school 
enrichment. Or, how do we help rural, isolated areas attract 
the very best teachers? Because many times these communities 
have great difficulty in attracting.
    And how can we develop a ``grow your own'' program, which I 
think would really help to encourage young people graduating 
from high school--be they live in the Navajo Nation, or Hickory 
Apache, or Okiawinga or a San Ildefonso where we can get young 
people that graduate from high school to commit to going on, to 
getting their degrees in education, and somehow support them 
while they're there, so they can be successful in higher ed, 
but then come back to their communities. Think what a head 
start we would have with those teachers, who already understand 
the language and the culture. And not only how they would serve 
as role models to those kids, and give them hope that they also 
can be successful.
    I want to share with you specific recommendations that I 
believe will help. Three years ago, New Mexico participated in 
a consortium of about 17 States. We found that New Mexico--
there was approximately $37 million that we felt we needed, as 
more schools become identified--and I think it's necessarily 
that more schools are failing, but it's a function of the 
system that needs to be changed--we need additional support.
    Schools that serve high numbers of Native American students 
have NCLB designations as corrective action or restructuring, 
and yet we do not have the adequate funding to provide them the 
support they deserve.
    Let me just go through the areas that I think need 
changing, or could be revised to make the law more helpful and 
more meaningful.
    First, I want to comment that Governor Mountain's quote is 
correct, and I say it all the time--the AYP designation, in and 
of itself, is meaningless. It means nothing to parents. You 
made it, or you didn't make it. And I don't care how often I 
meet with editorial boards and say, ``Please don't say, you 
know, X amount of schools failing.'' Because we could have a 
school that might not make AYP because of a participation rate 
of one subgroup. We could have another school that didn't make 
AYP because it had low proficiency in low areas--they all get 
the same rating. Or, I could have schools with high 
proficiency, but because of a participation rate in one 
subgroup does not make AYP, they get the same label.
    What we need is a more gradiated system that is more 
meaningful, that gives parents information about a school, as 
opposed to a pass/fail that has no meaning, and I think 
unfairly labels schools.
    Second, increasing fairness by providing appropriate 
assessments and timelines for proficiency of English language 
learners and special education students. This is particularly 
true for Native American students. Because, for example, if we 
have students that do not--have not mastered academic English, 
we have to test them--regardless--in mathematics the first 
year.
    Our tests are not--as you know, our standards are rated, 
you know, the top seven in the country, we have an assessment 
that's aligned to that. But they have to do word problems. They 
have to read these word problems. If you don't have proficiency 
in English, you cannot give them an alternate assessment. Right 
there it is unfair for those students. It puts students who are 
not proficient in English at a distinct disadvantage.
    The timeline for English language acquisition for many 
scholars in terms of academic language is 7 years. That is not 
recognized in this current system. And second, the research 
shows that if children have a well-developed academic language 
in their own home language, when they make that transfer to 
English, it will be a lot more effective and efficient, but 
this system does not allow for that.
    Third, you've already talked about this, Senator--growth. 
There were 10 States that were allowed to apply for a growth 
model, New Mexico is now in its third year of an aligned 
system, so we'd be eligible to apply for growth, if the Federal 
Government would open that window, and allow us to demonstrate 
growth.
    The next area is financial incentives, and I've talked 
about that, to attract the best and the brightest to high-need, 
rural, isolated areas, which many of our Native American 
students live in rural, isolated areas. We need support from 
the Federal Government to figure out how we can do that, and 
also to be able to grow our own teachers.
    We need to be able to provide technical assistance on the 
best practices, and disseminate that information. We're 
fortunate that here in New Mexico we have the Indian Education 
Act, and the No Child Left Behind does not recognize that we 
have, in the act, the maintenance of language and culture. And 
the other piece that is out of sync, is that President Bush 
signed an Executive Order on implementation of NCLB, and Native 
American students. And it said that NCLB was supposed to be 
implemented in line with language and culture. I have asked in 
writing, I have asked publicly, I've been a part of meetings--
we've been able to get no real guidance from Bureau of Indian 
Affairs, or from, excuse me, Department of Interior, or the 
U.S. Department of Education, in terms of, well, how do we 
implement NCLB in terms of language and culture? Right now, we 
are required to use the same yardstick without any 
consideration of culture.
    We need to change the order of tutoring and choice. Usually 
the parents that choose choice before they choose tutoring pull 
out their kids from the school, and then we lose the parents 
who are the most active in those schools. So, we need more 
support in that area.
    We need financial support to increase the school day, and 
the school year, to our neediest schools. We need to have 
better coordination and support between BIA schools and public 
schools that move back and forth between the systems. And we 
need more recognition that, in a State like New Mexico that has 
an Indian Education Act, and the fact that we recognize the 
sovereignty of our tribes and pueblos--the implementation of No 
Child Left Behind, for example, the Navajo Nation, and 
they're--I believe, title X--how do States still honor 
sovereignty, implement No Child Left Behind, and deal with the 
Executive Order? And so, we have all of these things that are 
coming in conflict, that I think are not recognized by this 
law, nor the Federal Government.
    No Child Left Behind is designed on an urban model, and 
currently, you know, in terms of restructuring, or meeting 
highly qualified, where many teachers have to wear multiple 
hats--how do we meet those needs? We need more flexibility in 
these rural isolated areas.
    Last, we need--in our MOU with the tribes--the tribes 
certify that individuals have met their criteria for teaching 
language and culture. Then the Department certifies them to do 
that. In New Mexico, we support maintenance of language and 
culture. And yet I feel that this works in counter to what No 
Child Left Behind requires us to do, in terms of testing 
students in English.
    I had an opportunity over the last couple of years to hold 
community conversations throughout the State of New Mexico, and 
I also had the opportunity to visit many Native American 
communities. And what I hear from them--and I'm going to share 
with you--is that the current system often demoralizes them by 
testing them and labeling them in a manner that is unfair to 
them, and to their communities. I have heard groups say to me 
that they would like to create their own version of AYP, that 
also considers cultural competence and language competence, and 
obviously, that is not recognized.
    But, I want to say, in closing, that I am committed to 
working with you to find solutions. And, I thank you for this 
opportunity.
    [The prepared statement of Ms. Garcia follows:]

             Prepared Statement of Hon. Veronica C. Garcia

    Good morning. I'd like to thank Senator Jeff Bingaman for his 
invitation to speak to this committee on a topic that is crucial as we 
continue to move educational reform forward not only for the State of 
New Mexico but for our entire country. Let me preface my remarks by 
saying that I truly believe in the spirit of No Child Left Behind. I 
agree that for years we have continued to see children based on where 
they live to continue to lag behind on their educational attainment. 
While members of various ethnic groups have been at the bottom of the 
achievement gap I contend that the issue is related more so to poverty 
and to the individual's facility with the English Language then their 
ethnicity. Therefore, English Language Learners and poor children have 
significant hurdles in attaining proficiency. This is particularly true 
for our Native American Students who many live in rural isolated areas 
of the State and may not be proficient in English when they enter 
school.
    NCLB focuses on accountability. However, I believe that it needs to 
add to its focus the impacts of poverty and what can be done at the 
Federal level to help States ameliorate the impacts of poverty through 
other initiatives that will help support our students; such as: Pre-K, 
breakfast in the schools, after-school enrichment programs, recruitment 
of highly qualified teachers to hard to recruit areas, etc.
    This morning, I will share with you specific recommendations that I 
believe need to be made to NCLB if we are to have a fair system of 
accountability. Further, the program must be adequately funded. Three 
years ago New Mexico participated in a consortium of States and at that 
time found that NCLB was under-funded in New Mexico by millions of 
dollars. As more schools are identified in need of improvement the 
dollar amount continues to increase. Schools that serve high numbers of 
Native American Students have NCLB designations as corrective action or 
restructuring schools and need additional support yet we do not have 
adequate funding to provide them the support they deserve.
    In general these are areas of NCLB that must be addressed:

    <bullet> Increase fairness by moving from a pass/fail model to one 
that provides meaningful information to parents and communities about 
their schools. AYP designations by themselves are misleading. We need a 
graduated system or ranking that recognizes when a school is a high 
performing school yet perhaps missed AYP due to say a participation 
rate in one area.
    <bullet> Increase fairness by providing appropriate assessments and 
timelines for proficiency for English Language Learners and Special 
Education students. This is particularly important for Native American 
Students. Many of these children come from nations that do not have a 
written language. It becomes even more difficult for these children to 
be tested when they haven't mastered proficiency in English. Secondly, 
under NCLB children must take the test in mathematics in English 
regardless of their English proficiency level. In New Mexico, our 
standards-based assessment requires a significant amount of reading due 
to the inclusion of word problems. This puts students who are not 
proficient in English at a distinct disadvantage.
    <bullet> Increase fairness by recognizing the growth made by 
struggling schools that have improved. New Mexico has not been eligible 
to apply to utilize a growth model. It is our hope that we will be 
given an opportunity to apply. The ability to use growth was limited to 
10 States that had longitudinal data and a data system that would 
support the utilization of a growth model. New Mexico is now in a 
position to apply but we are not clear if the 10-State limit is still 
in effect.
    <bullet> Provide financial incentives to school districts to move 
their best and brightest teachers to schools of highest need. Many of 
our Native American students live out in very rural and isolated areas 
of the State. Many new teachers are looking for a lifestyle that is 
more consistent with an urban setting (e.g. Starbucks, movie theaters, 
night life, etc.) We need support from the Federal Government financial 
incentives that districts can provide to help recruit top notch 
teachers to these underserved communities.
    <bullet> Provide more support and technical assistance to States on 
best practices and improvement models. There needs to be more support 
to States to encourage the dissemination of best practices not only 
within New Mexico but around the country. I believe that we have made 
some gains here in New Mexico with the implementation of the Indian 
Education Act that could be of service to other States that serve high 
populations of Native American students.
    <bullet> Change the order of tutoring and choice by providing 
support to improve the performance of the school. Hold after school 
providers to greater accountability and performance outcomes.
    <bullet> Provide financial support to increase school day and 
school year to our neediest schools.
    <bullet> Provide financial incentives to States that provide 
quality professional development to its teachers based on best 
practices for teaching. We need training for teachers in cultural 
sensitivity if we are going to meet the needs of our Native American 
Students.
    <bullet> Provide financial incentives to States that can 
demonstrate strong partnerships between K-12, higher education and the 
business community to improve the States educational systems. There 
also needs to be the creation of an infrastructure that will support 
stronger communication between the BIA schools and the public schools 
as many of our students move back and forth between the systems.
    <bullet> In New Mexico we have the Indian Education Act that 
supports the maintenance of language and culture and the provision to 
teach it in our schools. The tribes and pueblos certify that 
individuals within their communities have the skills to impart this 
knowledge and through an MOU process the Public Education Department 
credentials them to teach language and culture in the public schools. 
However, there is no provision under NCLB for testing these children in 
accordance with language and culture. Further, President Bush signed an 
executive order that NCLB for Native American students needed to be 
implemented in recognition of the language and cultural differences. 
Yet to this day, the States have been unable to get guidance from 
either the Departments of the Interior or Education. This is a critical 
factor for New Mexico as there is a strong sentiment that an indigenous 
evaluation of competence be developed for Native American students 
dependent on the needs of each tribe and pueblo. While this is a 
complex issue it is one that must be addressed.
    <bullet> NCLB is most easily implemented in a large urban district. 
It is very difficult to implement in rural isolated areas. For example, 
restructuring becomes very difficult. Where do displaced teachers go 
and where do we find the teachers to replace them? Secondly, it is more 
difficult to meet the requirements for HQT in these communities where 
often teachers must wear multiple hats and teach several content areas. 
There need to be more flexible ways to demonstrate competence for 
teachers who choose to commit to teach in these hard to recruit 
environments.
    <bullet> Lastly, it would be wonderful if there were Federal 
incentives to grow your own teachers from Native American communities. 
The advantages of having teachers who understand the language, culture, 
and social mores of a community would have a head start in relating to 
the young people they teach. They would serve as excellent role models 
and I think could serve an integral component in helping closing the 
achievement gap for our Native American Students.

    I thank the committee for the opportunity to provide testimony 
regarding the education of our Native American Students and NCLB. I am 
very committed to providing leadership to close the achievement gap but 
we must ensure that we are implementing strategies that help support 
Native American Students. What I hear from community conversations that 
I've had in Indian Country is that the current system often demoralizes 
them by testing them and labeling them in a manner that is unfair to 
them and their communities. I am committed to working with you to find 
solutions.

    Senator Bingaman. Thank you very much for your excellent 
testimony.
    Our next witness will be Dr. VerlieAnn Malina Wright, who 
is the President of the National Indian Education Association. 
NIEA is the oldest and largest Native education organization 
representing American Indians, Alaska Natives, and Native 
Hawaiian educators and students. It was founded in 1969, it is 
the largest organization in the Nation dedicated to Native 
education advocacy, and professional development issues, and 
embraces a membership of over 3,000 American Indian, Alaska 
Native, and Native Hawaiian educators, tribal leaders, school 
administrators, teachers, parents and students.
    Dr. VerlieAnn Wright, thank you for being here.

         STATEMENT OF VERLIEANN MALINA WRIGHT, ED.D., 
 PRESIDENT, NATIONAL INDIAN EDUCATION ASSOCIATION, WASHINGTON, 
                              DC.

    Ms. Wright. Y'at'eeh, Aloha.
    Thank you, Senator Bingaman for holding this important 
hearing. As the 38th President of the National Indian Education 
Association, I'm here to provide our views on improving NCLB 
for Native children.
    I thank you, and the pueblos and tribes in New Mexico for 
your crucial efforts in passing the Esther Martinez Act last 
year. We urge the HELP Committee to include the provisions in 
Esther Martinez in NCLB.
    We echo what the tribes here in New Mexico have known for a 
long time--that using Native languages bolsters academic 
achievement. Research strongly supports this. We actively 
prepared for the reauthorization of NCLB by conducting 11 field 
hearings with over 120 witnesses nationwide.
    We previously submitted our legislative recommendations 
based upon these hearing, to this committee in March. The 
hearings were productive, but it also was clear that there is a 
lot of frustration with NCLB, as conveyed in Governor 
Mountain's testimony.
    I would like to highlight a few key areas that we urge the 
committee to improve in NCLB.
    First, title VI needs to be strengthened. Title VII of NCLB 
recognizes that Native children have unique educational needs 
due to their cultures and traditions. The purpose of title VII 
is similar to the purpose of the New Mexico Indian Education 
Act--to provide culturally based education approaches for 
Native students. These approaches increase student performance, 
as well as awareness of their Native backgrounds. Innovative 
school programs, that incorporate Native languages and culture, 
as described in Ms. Benally's testimony, have proven academic 
success in Indian Country. Students can meet NCLB academic 
benchmarks, while also learning about their cultural 
traditions.
    Second, NCLB should support instruction in Native American 
languages. New Mexico's Indian Education Act provides 
opportunities for Native children to perform better 
academically, because they're taught in a manner that is 
consistent with their traditions, languages and cultures. Also, 
programs such as the Navajo Immersion School in Fort Defiance 
show how Native language immersion programs provide a proven 
method for Native students to achieve academically in the areas 
of: math, reading, science, art, social studies and languages.
    NCLB should follow the example of New Mexico's Indian 
Education Act, and the Navajo Immersion school. It should be 
amended to foster these types of approaches to teaching and 
learning.
    Further, we agree with Dr. Garcia, that assessments of 
competency should consider Native cultural traditions.
    Third, cooperation among tribes, States, and the Federal 
Government, in addressing the needs of Native students, must be 
improved. We seek stronger emphasis in encouraging States, 
tribes, local communities and the Federal Government to work 
together in developing educational standards. Our proposed 
amendments provide for the inclusion of tribal input, on the 
development of State, local education agency, and school plans.
    For example, San Filepe. Filepe Pueblo's written testimony 
states that its local education agency in the State, should be 
required to consult with Pueblo leaders and parents, in 
developing educational plans, and that improved cooperation 
would result in greater academic achievement by students 
through the use of the Carys language and Native culture.
    Fourth, more support is needed for teachers of Native 
students. Many Native communities, like in New Mexico, are 
located in rural areas, where quality teachers are in short 
supply. We agree with Dr. Garcia, that programs that encourage 
growing our own teachers are crucial. There are programs to do 
this in NCLB, but unfortunately--they are not funded.
    We urge this committee to help us fund these programs. That 
includes pre-service and in-service education.
    I will close by saying that Native communities have many 
unique challenges, including poor housing, poor health care, 
alcoholism, lack of transportation, and poverty, which all 
affect our students' abilities to succeed.
    However, if these four areas in funding are improved in 
NCLB, the Native students and teachers will have the tools they 
need to get on to the path to success.
    Last, I would like to share with you a little bit about my 
background. This is my 40th year in education, I'm an old buck.
    [Laughter.]
    But the role of the Federal Government in developing me as 
a professional teacher, and the role of Santa Fe, I would just 
like to share this short story.
    I was a volunteer, as a senior, in the University of 
Hawaii, M'Anoa, and I volunteered tutoring at a private 
Catholic school that was close by. I also was the Debate Coach, 
and we had an opportunity to come to Santa Fe, 40 years ago. I 
brought my team of students, we won the nationals in 
extemporaneous speaking.
    Senator Bingaman. Terrific.
    Ms. Wright. I became a teacher. I was a Finance Major in 
Business, and I ended up becoming a teacher.
    In the 1970s, there was the Education Professions 
Development Act, and I received a fellowship to UCLA, and the 
purpose--which is like, well over 30 years ago, Senator--was to 
develop administrators and leaders. The Federal Government gave 
me the opportunity, because I could afford a fellowship at 
UCLA. Also, UCLA, at that time, was one of the top three 
colleges in education, but I chose UCLA because it was the 
cheapest airfare home.
    [Laughter.]
    The third, is that I came out of retirement in 1995 from 
the Kamaamaa schools, a Hawaiian school, to help this Hawaiian 
language immersion school. We are a K-12 school, we are now 
moving a P-20--preschool to Ph.D., we're currently a P-16. And 
I wanted to share with you that I think I could incorporate 
some of the concerns and frustrations about NCLB.
    In 1995, I came to help this school become accredited. We 
were issuing our diplomas, and by the way, Senator, this is our 
20th year, this is our 12th graduating class, and we always 
have had 100 percent graduation rate.
    Senator Bingaman. That's terrific.
    Ms. Wright. Yes. And second, we became a Blue Ribbon 
School, in the mid-, late-seventies--excuse me, eighties, 
because we exceeded the national curve equivalences. But, when 
NCLB came in within the 5 years, we became a restructured 
school, okay? We went from a total interdisciplinary 
curriculum, to silos of standards. And this is very difficult 
for indigenous thinking, because we see everything as a whole.
    However, I am pleased to announce that we just received a 
6-year accreditation, last month, from WASC, and we also made 
AYP.
    Senator Bingaman. Very good.
    Ms. Wright. I think that one of the areas that Hawaii, and 
it has to do with leadership, in terms of the Superintendent. 
Patrician Hamamoto made the commitment, No. 1, and her 
technology system to track immersion students. And that way we 
can now use data to drive instruction.
    No. 2, it requires cooperation, and we have worked very 
hard now to look at cultural indicators and facts, including 
indigenous rubrics in classrooms that help Native children 
succeed.
    But, perhaps the most profound change is that our third and 
fourth grade students are tested through the Hawaiian Alliance 
performance assessment, they are tested in the Hawaii language, 
and the legislature just approved developing a test for grades 
5 and 6. We issued two diplomas--one in the Hawaiian language, 
and one in English. And this past year, we graduated 13 
students, 100 percent went on to higher ed. This year we'll 
graduate 35, and we hope that we will have 100 percent entry in 
college.
    Thank you so much for allowing me to share my stories.
    Senator Bingaman. Well, thank you for your excellent 
testimony and thank you for coming back to Santa Fe for this 
hearing.
    Ms. Wright. It closes the circle, doesn't it?
    Senator Bingaman. Yes.
    Ms. Wright. Thank you.
    [The prepared statement of Ms. Wright follows:]

          Prepared Statement of VerlieAnn Malina Wright, Ed.D.

    On behalf of the National Indian Education Association (NIEA), the 
oldest and largest Native education organization representing American 
Indians, Alaska Natives, and Native Hawaiian educators and students, 
thank you for the opportunity to submit testimony to the Senate Health, 
Education, Labor, and Pensions Committee on the recommendations from 
Indian Country on the reauthorization of No Child Left Behind.
    Founded in 1969, NIEA is the largest organization in the Nation 
dedicated to Native education advocacy and professional development 
issues and embraces a membership of over 3,000 American Indian, Alaska 
Native and Native Hawaiian educators, tribal leaders, school 
administrators, teachers, parents, and students. NIEA collaborates with 
all tribes to advocate for the unique educational and culturally 
related academic needs of Native students and to ensure that the 
Federal Government upholds its responsibility for the education of 
American Indians. The trust relationship of the United States includes 
the responsibility to ensure educational quality and access.
    NIEA's top legislative priority is to strengthen the education of 
American Indians, Alaska Natives, and Native Hawaiians through 
effective and meaningful education programs and approaches in the 
reauthorization of the No Child Left Behind Act (NCLB). NIEA is 
committed to strengthening NCLB for Indian Country through provisions 
that provide for meaningful tribal involvement in setting the 
educational priorities for Indian students and the inclusion of Native 
language and cultural instruction.
    NIEA has actively prepared for the reauthorization of NCLB by 
conducting 11 field hearings with over 120 witnesses in Native 
communities across the country. NIEA has also conducted numerous 
listening sessions and meetings with Native students and parents, 
educators, school administrators, and tribal leaders to learn about the 
challenges Native people face under NCLB. Based upon this extensive 
dialogue, NIEA prepared its Preliminary Report on NCLB in Indian 
Country and its NCLB Policy Recommendations. In March, NIEA submitted 
comprehensive draft legislative amendments to this committee and to the 
House Education and Labor Committee for consideration for inclusion in 
the bill that will reauthorize NCLB.
    As an organization of Native educators, NIEA supports high 
achievement standards for all children and holding public schools 
accountable for results. Further, NIEA lauds the goal of Title VII of 
NCLB to meet the unique cultural and educational needs of Native 
children. Title VII affirms the Federal Government's support for 
culturally based education approaches as a strategy for positively 
impacting Native student achievement. NIEA wants to strengthen NCLB to 
better serve the needs of Native communities, particularly those who 
live in remote, isolated and economically disadvantaged environments. 
NIEA's amendments to NCLB focus on several key categories as set forth 
below.

   IMPROVING AND EXPANDING TITLE VII TO ADDRESS THE UNIQUE CULTURAL 
                AND EDUCATIONAL NEEDS OF NATIVE CHILDREN

    Title VII of NCLB recognizes that Native children have unique 
educational needs due to their cultures and backgrounds. The purpose of 
Title VII \1\ of NCLB is to provide culturally based educational 
approaches for Native students. These approaches have been proven to 
increase student performance and success as well as awareness and 
knowledge of student cultures and histories. In general, these 
approaches include recognizing and utilizing native languages as a 
first or second language, pedagogy that incorporates traditional 
cultural characteristics and involves teaching strategies that are 
harmonious with the native culture knowledge and contemporary ways of 
knowing and learning. It also includes curricula based upon native 
culture that utilizes legends, oral histories, songs and fundamental 
beliefs and values of the community. In addition, it involves parents, 
elders and cultural experts as well as other community members' 
participation in educating native children utilizing the social and 
political mores of the community.\2\ Part A of title VII deals 
specifically with the education of American Indian and Parts B and C 
address the educational needs of the Alaskan Native and Native Hawaiian 
students. NIEA has proposed amendments to focus the purpose of title 
VII to include both academic achievement through culturally based 
education and to increase the cultural and traditional knowledge base 
of Indian students.
---------------------------------------------------------------------------
    \1\ Title VII of the No Child Left Behind Act incorporates the 
Indian Education Act of 1972.
    \2\ Demmert, W.G. & Towner, J.C. (2003) Final Paper: A Review of 
the Research Literature on the Influences of Culturally Based Education 
on the Academic Performance of Native American Students. Northwest 
Regional Educational Laboratory, Portland, OR.
---------------------------------------------------------------------------
    Part A of title VII contains provisions for American Indian 
Education and provides supplemental grants to local educational 
agencies, tribes, Native organizations, educational organizations, and 
others to provide programs and activities to meet academic, cultural, 
and language needs of Native children. Native learning is strengthened 
through instruction that integrates traditional cultural practices with 
basic skills and embraces the knowledge of the environment, Native fine 
arts and crafts, leadership, character education and citizenship.
    Last year, the Department of Education advised Indian education 
programs receiving title VII funding to shift their focus from the 
teaching of culture to math and reading. In fact, the Department of 
Education wrote a letter to the Superintendent of St. Paul schools in 
Minnesota directing that there be a ``gradual shift of focus from 
history and culture to reading and math.'' \3\
---------------------------------------------------------------------------
    \3\ Correspondence from Bernard Garcia, Group Leader, Office of 
Indian Education, U.S. Department of Education, to Patricia Harvey, 
Superintendent, St. Paul Public Schools, received on November 4, 2005.
---------------------------------------------------------------------------
    This shift in purposes under title VII causes immense concern for 
NIEA and our members. By law, Native children should have access to 
culturally relevant and appropriate curriculum that supports their 
academic achievement so that they may meet the standards that all 
children are supposed to meet.
    At each of the 11 hearings that NIEA held on NCLB, concern was 
highly focused on the significant narrowing of the curriculum and the 
decrease in the use of culturally appropriate teaching approaches known 
to be effective for Native students given the increased focus on 
testing and direct standardized instructional approaches. NIEA is 
witnessing a broad-based reduction and diminishment of culturally based 
education in schools which provide an effective and meaningful 
education for Native students. In classrooms across Indian Country, 
Native languages and cultures are being used less and less in teaching 
Native students math, science, or reading because Indian children are 
drilled all day long on the materials contained on standardized tests. 
However, integrating native language and culture in conjunction with 
these and other content areas is not mutually exclusive. Rather, it is 
complementary and enhances knowledge and academic achievement. 
Therefore, Native children's ability to learn better is enhanced by 
integrating their native language and culture into the curricula.
    Current research demonstrates that cultural education can be 
successfully integrated into the classroom in a manner that would 
provide Native students with instruction in the core subject areas 
based upon cultural values and beliefs. Math, reading, language arts, 
history, science, physical education, music, cultural arts and other 
subjects may be taught in curricula instilled in Native traditional and 
cultural concepts and knowledge.
    Innovative programs that have proven academic success in Indian 
Country incorporate language and culture. The Native Science 
Connections Research Project (NSCRP), in Flagstaff, Arizona is a 
research model that successfully integrates native language, culture 
and traditions into the schools' science elementary curriculum. The 
NSCRP model is applicable to other cultures, grade levels and academic 
disciplines and demonstrates what works for Native American students in 
achieving academic success in an era of accountability as marked by 
NCLB. The Yukon Title VII/Indian Education Program in Yukon, Oklahoma 
uses funding from title VII to purchase materials for arts and crafts 
lessons that incorporate reading and math. Additionally, the title VII 
program has helped each school (11 in all) update their libraries with 
approximately 900 books with Native American content. The Anchorage 
School District located in Anchorage, Alaska has developed a culturally 
responsive 6-year instructional plan to chart a course for closing the 
achievement gap while concurrently increasing achievement for all 
students through implementation of a culturally responsive continuum. 
The school district integrated recommendations from a coalition of 
Alaska Native educational organizations based upon research indicating 
that culturally related solutions (more Native culture, language and 
teachers) were the reasons most commonly attributed for improving 
schooling for Alaska Natives students.
    Given that Native children are performing at far lower academic 
achievement levels than other categories of students, title VII 
programs should be expanded and strengthened to ensure that No Child 
Left Behind also means No Culture Left Behind through the use of 
culturally based education to meet the unique educational needs of 
Native students. NIEA's proposed amendments to title VII provide for 
more emphasis on meeting the unique cultural, language and educational 
needs of Indian students through enrichment programs that supplement 
other NCLB programs and will result in academic achievement of Indian 
students. In fiscal year 2006, title VII served over 469,000 Indian 
students and 1,196 local education agencies.

       STRENGTHENING NCLB TO PROVIDE SUPPORT FOR INSTRUCTION IN 
                       NATIVE AMERICAN LANGUAGES

    Titles III, subparts A and B, as well as title VII currently allow 
for Native language instruction; however, these provisions should be 
strengthened so that schools can successfully achieve their educational 
goals and meet academic standards. NIEA's proposed amendments to 
support Native languages provide additional support for language 
immersion schools and restoration programs in addition to language 
activities inside the classroom. Research demonstrates that Native 
children perform better academically when they are taught in a manner 
that is consistent with their traditions, languages, and cultures. 
Native language immersion programs, which have been proven to 
dramatically improve Native student achievement in English and in 
Native languages, highlight the reasons to strengthen title VII.
    Specifically, Native language immersions programs have fostered 
higher academic achievement and interest in learning from American 
Indian, Alaska Native, and Native Hawaiian students. Studies have shown 
that, while Native American children and youth have exhibited stagnant 
educational achievement Native language immersion has demonstrated 
remarkable promise in educational achievement.\4\ National studies on 
language learning and educational achievement indicate the more 
language learning, the higher the academic achievement. Native language 
immersion programs provide a proven method to enable Native students to 
achieve academically in the areas of math, reading, and science as well 
as in other content areas. For many Native students living in rural and 
isolated areas, subjects that are taught in non-cultural pedagogies and 
removed from a tribal perspective are often lost on Native students due 
to the non-relevance of the materials to their environment, lives and 
identities.
---------------------------------------------------------------------------
    \4\ Pease--Pretty on Top, Janine. Native American Language 
Immersion: Innovative Native Education for Children & Families. 
American Indian College Fund: Denver, Colorado. 2003.
---------------------------------------------------------------------------
    Solid data from the immersion school experience indicates that 
language immersion students experience greater success in school 
measured by consistent improvement on local and national measures of 
achievement.\5\ For example, students in the Lower Kuskokwim School 
District in Alaska receive instruction in their Native languages and 
achieving Adequate Yearly Progress (AYP). In a Navajo immersion school, 
both the third and fifth graders are performing at higher levels than 
their mainstream counterparts in the State reading, writing, and math 
assessments. There are 18 public immersion schools in Hawaii and they 
out perform Hawaiian students in public general education. Native 
students attending language immersion schools are learning State 
content standards of math, reading, writing, science, and social 
studies in addition to Native language and culture standards. Native 
language immersion students are meeting and exceeding the State 
standards in English and academic standards nationally and are making 
the academic benchmarks for AYP under NCLB.
---------------------------------------------------------------------------
    \5\ McCarty, Teresa L. and Dick, Galena Sells. ``Mother Tongue 
Literacy and Language Renewal: The Case of the Navajo.'' Proceedings of 
the 1996 World Conference on Literacy. University of Arizona: Tucson, 
AZ. 1996.
---------------------------------------------------------------------------
    While data specific to Native American language immersions schools 
is continuing to be compiled, national studies from both the public and 
private sectors emphasize the positive impact of language studies on 
educational achievement.\6\ Language revitalization and maintenance 
programs must be incorporated into NCLB so that the implementation of 
education provisions does not hinder or preclude the offering of Native 
American languages efforts, including immersion for Native Americans as 
a part of their educational experience. NCLB must recognize and support 
Native language revitalization and maintenance efforts of Native 
American communities.
---------------------------------------------------------------------------
    \6\ Sugarmen, Julie and Howard, Liz. ``Two Way Immersion Shows 
Promising Results: Findings of a New Study.'' Center for Applied 
Linguistics, ERIC/CLL Language Link. ERIC Clearinghouse on Language and 
Linguistics: Washington, DC. September 2001, p. 2-3.
---------------------------------------------------------------------------
 IMPROVING COOPERATION AMONG TRIBES, STATES, AND THE FEDERAL GOVERNMENT

    NIEA seeks stronger emphasis in encouraging States, tribal 
governments and communities, neighboring areas, and the Federal 
Government to work together in developing the educational standards and 
related assessments. NIEA's proposed amendments provide for the 
inclusion of tribal input in the development of the various State, 
local educational agency, and school plans. Additionally, NIEA's 
amendments promote coordination of programs across titles I and VII to 
foster better programming to meet the unique cultural, language, and 
educational needs of Indian students.
    NIEA supports the strengthening of NCLB assessments that considers 
the cultural and educational needs of Native students. Assessments must 
be linguistically and culturally appropriate. States should be required 
to involve tribes located within their boundaries in the development of 
State plans to allow for the coordination of activities under the 
different titles of NCLB. Further, NIEA supports the strengthening of 
NCLB to provide resources for collaboration among tribes, States, and 
the Federal Government to allow for increased opportunities in the 
development of standards that recognize the cultural backgrounds of 
Native students. Local educational agencies should also be required to 
consult and seek the input of tribes located in the areas they serve 
when developing their district plans.
    Throughout NIEA's extensive consultation with Indian Country, we 
have learned that when a school is placed on school improvement for 
failing to make AYP, they are often advised to focus their activities 
on reading and math programs. This redirected and ill-advised focus 
results in the exclusion of language and cultural programs to the 
detriment of increasing achievement for Native students. NIEA has 
proposed that school improvement plans include the input of tribal 
representatives and promotion of culturally based education as a proven 
method of increasing academic achievement.

           IMPROVING SUPPORT FOR TEACHERS OF NATIVE STUDENTS

    Many Native communities are located in rural areas where the number 
of highly qualified teachers is in short supply. Research indicates the 
negative long term effect on student achievement when taught by 
teachers who are not highly qualified. Research also indicates that 
these effects are cumulative. In one study, students assigned to 
effective teachers for 3 consecutive years went from the 59th 
percentile in the 4th grade to 76th percentile in the 6th grade. 
However another group of students with similar characteristics were 
assigned to less effective teachers and went from the 60th percentile 
to the 42d percentile.\7\ NIEA seeks to strengthen NCLB by including 
programs to build capacity within Native communities for increasing the 
pool of highly qualified teachers. This initiative to provide for 
improved professional development through pre-service and in-service 
training for teachers and administrators would also prepare Native 
peoples to become highly qualified teachers who are also cultural 
practitioners and can continue upon a career ladder as school 
administrators, board of education members, and community educators.
---------------------------------------------------------------------------
    \7\ Beyond NCLB: Fulfilling the Promise of Our Nation's Children, 
The Commission on NCLB, The Aspen Institute, Washington, DC. 2007 p. 
30-31.
---------------------------------------------------------------------------
    The definition of ``highly qualified teacher'' in NCLB for teachers 
who educate Native students enhances school accountability through the 
achievement of AYP. When teachers are able to understand and apply the 
culture and language skills and abilities of Native students in their 
classes, the students flourish. This definition of highly qualified 
should include opportunity structures for Native language and cultural 
experts in the curricular programs of schools. NIEA supports the 
strengthening of NCLB to meet the needs of Native peoples who live and 
learn in their communities.

   IMPROVING OPPORTUNITIES FOR PARENTS, FAMILIES, TRIBES, AND OTHER 
 NATIVE COMMUNITIES TO PARTICIPATE IN THE EDUCATION OF NATIVE CHILDREN

    The schools that are successful are the schools where the parents, 
families, tribes, and the local communities are actively involved and 
engaged in the school's programs and activities. NCLB should be 
strengthened to allow increased opportunities for parents, families, 
and tribes and other Native communities to become more involved in 
their children's schools and in the development of their educational 
programs. NIEA advocates for increased parental involvement by 
improving their knowledge, skills and understanding of standards-based 
education and school accountability so that they too may advocate for 
their children's educational success. NIEA supports NCLB in the 
promotion of standards-based education as a family responsibility that 
helps children to achieve.

     IMPROVING THE MEASUREMENT SYSTEM FOR ADEQUATE YEARLY PROGRESS

    The current accountability system needs to be strengthened to allow 
for broader measures, including measuring individual students' progress 
of academic achievement over a period of time within the 2014 goal. 
NIEA supports NCLB provisions for alternative assessments that measure 
academic, culture and language proficiencies through portfolio-based 
measures of applied learning that are aligned to standards-based 
education. Instead of focusing on statewide standardized tests in only 
math, reading and science, NCLB could be strengthened to include 
success on multi-disciplinary and multi-level curriculum and 
instruction as additional measures of achievement.
    Many factors in Native communities affect student and school 
achievement, such as poverty, transportation, poor health care, and 
poor housing. NIEA supports the encouragement of best practices that 
increase Native student academic achievement but also seeks flexibility 
in achievement measures to accommodate these extenuating factors. 
Further, flexibility in the measurements for accountability could 
accommodate Native language immersion programs, which have been proven 
to significantly increase Native student academic achievement over 
time. To further explain, Native language immersion schools have 
reported to NIEA that they struggle in the early elementary schools 
grades to meet AYP because the testing is in English. However, over 
time, these same students in the latter elementary school grades 
dramatically outperform their peers academically on tests in English 
and are meeting AYP.

    REQUIRING THE COLLECTION OF DATA AND RESEARCH ON THE EDUCATION 
                           OF NATIVE CHILDREN

    NIEA supports the strengthening of NCLB by providing resources to 
conduct culturally based research. Support for best practices research 
to educate Native students and use of indigenous research criteria for 
federally assisted education programs benefits Native student 
achievement and improves academic measures of school success. NIEA 
supports the strengthening of NCLB to build capacity of Native 
education systems to develop, implement, collect and analyze systematic 
data on the educational status and needs of Native students. NIEA 
supports the strengthening of NCLB to assist Native education systems 
to use data to inform and improve student academic achievement. NIEA 
supports the strengthening of NCLB through partnerships with Native 
education school systems, higher education institutions and the 
Departments of Education and Interior. This research initiative could 
provide for partnerships to support efforts in Native communities that 
improve education program services and program accountability.

          INCREASING FUNDING FOR NCLB, SPECIFICALLY TITLE VII

    When NCLB was enacted, Congress promised to provide the resources 
necessary to meet its many requirements, provide school improvement 
funds to schools that failed AYP, provide increased resources 
especially for disadvantaged students and to help close achievement 
gaps by improving teacher quality, student achievement, and program 
accountability. However, NCLB has never been funded at the authorized 
levels. NIEA supports the strengthening of NCLB Title VII through 
resources that would support pre-service and in-service training for 
teachers, resources that support national research activities, 
fellowships for Native students, programs for gifted and talented 
Native students, grants to tribes for education administrative planning 
and development, educational services programs for Native students, and 
educational opportunity programs for Native students. Only by funding 
these critical programs on a sustained basis can we ensure that No 
Child is Left Behind.
    NIEA also supports the strengthening of NCLB by providing resources 
that adequately fund title I programs. NIEA supports the strengthening 
of NCLB by ensuring that title VII resources cannot be supplanted to 
meet the shortfalls in other titles of NCLB. NIEA supports the 
strengthening of NCLB through the inclusion of language that protects 
the limited resources of title VII.
    NIEA continues to be concerned with the inadequate funding in the 
Department of Education and the Department of Interior, Bureau of 
Indian Affairs, for Indian education programs and activities. Due to 
the tight Federal budget, NIEA proposes in its amendments a moderate 
increase from the current authorizing level of $96.4 million to $130 
million for title VII, part A, subpart 1, which is an amount equal to 
an increase of 5 percent each year beginning in fiscal year 2003. NIEA 
has also increased the authorization for subparts 2 and 3 to $34 
million, which is an amount equal to an increase of 5 percent each year 
beginning in fiscal year 2003.

                    BUREAU OF INDIAN AFFAIRS SCHOOLS

    There are only two education systems for which Federal Government 
has direct responsibility: the Department of Defense schools and 
federally and tribally operated schools that serve American-Indian 
students through the Bureau of Indian Affairs (BIA) within the 
Department of the Interior. The federally supported Indian education 
system includes 48,000 elementary and secondary students, 29 tribal 
colleges, universities and post-secondary schools. Approximately 10 
percent of Native children attend BIA schools while the remaining 90 
percent attend public schools supported through the Department of 
Education.
    Only one third of the BIA-funded schools are achieving AYP. NIEA is 
concerned about the applicability of State standards to Native children 
attending BIA schools. More often than not, States develop the 
standards without consultation and inclusion of the tribal communities. 
Tribal communities are in the best position to determine the needs and 
the appropriate assessment methods for Native students. NIEA's 
amendments provide for the ability of a consortium of tribes, BIA-
funded schools, or school boards to apply for a waiver of the 
definition of AYP. Currently, a single tribe, school board, or BIA-
funded school may apply for a waiver, however, considering the 
significant amount of time and resources needed to successfully submit 
an application, very few tribes, if any, have been able to submit an 
application on their own. NIEA strongly supports the possibility of 
developing and applying alternative tribal standards to measure AYP for 
students attending BIA schools.

                               CONCLUSION

    NIEA is committed to accountability, high standards and rigorous 
education of our children; however, the implementation of NCLB by the 
Federal Government does not enable Native students to meet their 
academic potentials given the lack of consideration of their cultures, 
languages, backgrounds, and identities. Cultural identity and rigorous 
educational standards are compatible and complementary. We believe with 
good faith collaboration that we can provide our children with an 
education that honors their Native identity while simultaneously 
preparing them for successful futures by providing them the opportunity 
to incorporate into the curriculum their rich cultural heritage, 
language, traditions, and native ways of knowing.
    As part of its efforts on reauthorization, NIEA will continue to 
perform as much outreach as possible so that the Congress can better 
understand the needs of Native students, thereby allowing student needs 
to be addressed during reauthorization of NCLB. We are extremely 
appreciative of Senator Bingaman's and Senator Kennedy's unparalleled 
support for Indian education. We thank this committee for making Indian 
education a top priority and for holding this important hearing. We 
hope that there will continue to be more congressional outreach to 
Indian country, including additional field hearings in other regions of 
Indian country, so that the challenges and issues impacting American 
Indian, Alaska Native and Native Hawaiians' students can be better 
understood.

    Senator Bingaman. Next is Ms. Maggie Benally, who is the 
Principal of the Navajo Immersion School, that Dr. Garcia 
referred to, at Window Rock Unified School District. Why don't 
you go right ahead? Thank you for being here.

  STATEMENT OF MAGGIE BENALLY, PRINCIPAL, WINDOW ROCK UNIFIED 
               SCHOOL DISTRICT, FORT DEFIANCE, AZ

    Ms. Benally. Y'at'eeh. Thank you for allowing me to be 
here. I'm Maggie Benally, an enrolled member of the Navajo 
Nation and principal of Tsehootsooi Dine Bi'Olta', that's an 
Immersion School. And, I would like to thank the Window Rock 
School Unified District, the Navajo Nation, the National 
Alliance to Save Languages, and NIEA for giving me this 
opportunity to be here and testify on behalf of all Native 
children in the State of Arizona, our neighboring State of New 
Mexico, and throughout Indian country.
    I am speaking from the heart because I was a school teacher 
and now third-year principal at one of the schools in our 
district, Immersion School. We are a small school, a K-8 school 
and eventually plan to make it into a high school in the 
future.
    Window Rock Unified School District views No Child Left 
Behind as an opportunity and improvement for our educational 
services that the district provides to our students using 
standard space learning and cultural-based education. I really 
would like to emphasize that because if we did not do that, I 
think we would not have been successful. We took it upon 
ourselves to make sure that our students are educated using 
cultural-based learning. And, we are, we embrace that change so 
that students, each student will learn and be the best in this 
District, in the Navajo Nation, and then throughout the 
country.
    What we did was, look at each of our core principles to 
make sure that all our students are meeting them, and our 
District is making sure that we are doing what we can for our 
children. We looked at our curriculum, we look at our 
restructure, we look at our assessments, we look at how 
students are performing, we looked at staff performance, how we 
communicate with parents and community, and we look at how our 
school is supporting each other in the school district. And, 
that is how we put our school together so that our school would 
be successful in what we are doing, as far as meeting the goals 
of NCLB.
    Tsehootsooi Dine Bi'Olta' embraced the challenge to meet 
the Arizona Academic content standards and with instruction and 
Dine in English language. And, when we did that, we looked at 
our curriculum and to make sure that we are looking at each 
child and making sure that we are meeting the needs--what we 
want them to do is learn the language, maintain the language, 
and revitalize the language for students in our District.
    As I mentioned earlier, we have K-8 and plans to develop or 
expand to 9-12 and our plan is to develop an early college for 
grades 6-12. That is our goal. And, what we would like to see, 
as far as NCLB, is support in that area, more funding in terms 
of getting what we need in academics, curriculum, instruction, 
and the strategies that are used to help students in education 
to help them achieve academically.
    The success of the school is evidenced by the proficiency 
level established by students in grades K and 2d, because in K 
and 2nd the students are immersed in the Native language. There 
is no English language introduced in those early grades. And, 
these students have a higher proficiency level on Dine as 
compared to their peers at the same age level when the school 
was a program with an English medium school.
    The curriculum was developed and implemented to address the 
challenging academic content standards in the core subjects. 
The standards are taught through rich content in the Dine 
language, the Dine culture and language and the benchmark 
assessments that we are using are developed by teachers because 
we know the students, we know what they are capable of, and 
there is research that is being done to help us validate and 
have the reliability so that what we are doing in terms of 
assessments are aligned to the Arizona content standards.
    Window Rock Unified School District agrees with the goals 
of NCLB for Native students. We do not make excuses, but as a 
District school we make every effort that students at our 
school and other students in the other schools in the district 
are provided with quality education to increase success and 
performance with the integration of language and culture into 
standard space education.
    By learning in two languages, students develop higher-order 
thinking skills and develop a higher level of both Dine 
language and English language proficiency. Students learn to 
speak, read, write, and think in the Dine language, ensuring 
the survival of the language for future generations.
    For the past 3 years and this past spring, our school had 
made AYP and this, this shows that when you implement and 
develop curriculum that is culturally based, that will really 
help schools and that is why we are asking for your help and 
support.
    Tsehootsooi Dine Bi'Olta' Immersion School is one of the 
four Immersion Schools nationwide that is involved in 
longitudinal study, that I stated earlier, to make sure that 
what we are doing, in terms of assessment, is there's a 
reliability and validity and that that will help us with 
student achievement. Our graduation rate is up there. As far as 
we know, the school, the students that graduated from our 
school, all, each student have gone up to higher education or 
no one, none of the students dropped out of our high school 
when they got to that point and are now pursuing other 
educational opportunities.
    However, there are many challenges that No Child Left 
Behind poses to our effort. Continued support is needed to 
provide cultural and linguistic-related educational programs. 
The lack of acknowledgment of the importance of the components 
of the Native Language Act is evident in our State plans. That 
needs to be addressed and looked at. Students are lumped into 
ELL, that is English, Structured English Immersion under title 
III, and that, I don't think is an appropriate thing for our 
Native students.
    It is also very difficult for school districts serving 
Native students to find teachers who are fluent in the language 
and also meet the highly qualified requirements for our schools 
in the State of Arizona. I'm sure it is for other States. They 
have to be certified. They have to meet the rigorous standards 
and, that they have to go through even though our teachers are 
qualified to teach the language. So, that we are also asking 
help in amending and changing so that we have teachers who are 
qualified, that can teach in our schools and the community.
    The Immersion School in Window Rock Unified School District 
isn't the only one of its kind in the Navajo Nation. Other 
communities and public schools across Indian countries and 
throughout United States have that desire to revitalize and 
maintain their Native language. However, contrary State 
policies hinders their ability to do so. We are asking that 
that be looked at and through State and funding be provided to 
help in those areas.
    Tseehootsooi Dine Bi'Olta' Immersion School has been in 
existence for 20 years, operating for over a decade before the 
passage of Proposition 203 in the State of Arizona. The program 
has enabled students to become proficient speakers of both Dine 
and English language and, as stated earlier, have higher 
graduation rates and higher education success. However, yet in 
our State, school district requires students to participate in 
Structure English Immersion, if they come from homes where the 
primary language is other than English. And policies, such as 
Proposition 203, devalues the learning of the Dine language. It 
sends the wrong message to our parents. It just tells them that 
the only way to succeed is through the English language.
    That we are looking at and we also need your support and 
assistance. The information provides us with enough evidence 
that support be given to culturally appropriate school systems 
that provide the opportunities for our children to become 
speakers and thinkers in their Native language, a foundation 
that will lead to academic achievement.
    In a sense, what I'm saying is what works, language and 
culture has a positive affect on student achievement. 
Integration of language and culture into standard space 
instruction increases student academic achievement. Second 
language learning increases higher order thinking skills. 
Development of Dine language or other Native language assists 
in English language acquisition. And, if there's district 
support, that really is also a help. And the benefits of being 
bilingual, being able to speak your own Native language and 
another language is one of the benefits.
    You think in two languages, not just one. Your brain 
functions at a higher order. When your brain functions at a 
higher order, then you develop higher order thinking skills 
fostering academic achievement. You have an academic advantage, 
you have a social advantage. And, the results is where there is 
a language proficiency in your Native language and English, 
there is also results in literacy in Dine language or Native 
language and English, there is a retention in high school 
graduation rate, there's teacher retention, family involvement, 
and responsibility for student learning. And, you have the 
cultural knowledge, there is your Native American values, in 
our case the Navajo values, and the language revitalization and 
maintenance for Native students.
    Thank you.
    [The prepared statement of Ms. Benally follows:]

             Prepared Statement of Maggie Benally (Navajo)

    Y'at'eeh members of the committee. I am Maggie Benally, an enrolled 
member of the Navajo Nation and the principal of Tsehootsooi Dine 
Bi'Olta', Navajo Immersion School. On behalf of the Window Rock Unified 
School District, the Navajo Nation, the National Alliance to Save 
Native Languages, and National Indian Education Association (NIEA), I 
would like to thank you for the opportunity to submit written testimony 
to the Committee on Health, Education, Labor, and Pensions on ``No 
Child Left Behind: Improving Education in Indian Country.'' My 
testimony is to provide information in regards to improving No Child 
Left Behind to best meet the needs of Native American students.
    The Window Rock Unified School District views No Child Left Behind 
(NCLB) as an opportunity and improvement of the educational services 
that the district provides to the students through standards-based 
learning and cultural-based education. The district accepted the 
challenge outlined in NCLB and began the improvement effort in school 
year 2002-2003 through the design and implementation of the district's 
effort entitled ``Embracing Change for Student Learning.''
    The district's framework for exemplary education used the local 
community philosophy of lifelong learning and research approach to 
create a six-step process for continuous reform. The district also 
created a strategic plan: 6 Core Principles of Learning that includes 
action plans to align all district activities:

    I. Exemplary, Curriculum, Instruction & Assessment
    II. Exemplary Student Performance
    III. Exemplary Staff Performance
    IV. Strong Parental and Community Relations
    V. Safe, Efficient, and Supportive School Environment
    VI. Efficient and Supportive Learning Operations

    It is through the framework and core principles of learning that 
the district work toward achieving its mission: ``We exist to ensure 
relevant learning for all students to be successful in a multicultural 
society''
    Tsehootsooi Dine Bi'Olta' embrace the challenge to meet the Arizona 
academic content standards with instruction in the Dine and English 
languages.
    Our school currently serves approximately 240 students in grades K 
through 8. The goals of the school is to provide opportunities in 
revitalizing the Dine (Navajo) language for families that do not speak 
the Dine language in the home and maintain the Dine language for 
families who do speak the Dine language in the home. The district 
opened up a Dine language immersion kindergarten classroom within an 
English medium school in 1986. Presently, it is a K-8 school with plans 
to expand the school to include grades 9-12 and plans to develop an 
Early College for students in grades 6-12.
    Tsehootsooi Dine Bi'Olta' uses the immersion strategy to teach the 
Arizona's academic content standards in reading, writing and 
mathematics using a standards-based approach to learning and teaching. 
The Dine is the primary language of instruction for a greater 
percentage of the student's K-8 educational experience. The school 
begins with full Dine language instruction at K-1 and a gradual 
increase of English language instruction by 10 percent per grade level 
from grades 2-8. At K-1, students are immersed in the Dine language to 
reach a level of proficiency to develop the cognitive academic language 
(CALP) in Dine. CALP is used to teach the Arizona's academic content 
standards. At Grade 2, students are instructed in the English language 
where the gradual transfer of CALP takes place from Dine to English. By 
the end of 8th grade students receive equal instruction of Arizona's 
academic content standards in reading, writing and mathematics in the 
Dine and English languages.
    The success of the school is evidenced by the proficiency level 
established by students in grades K-2. These students have a higher 
proficiency level on Dine as compared to their peers at the same age 
level when the school was a program within an English medium school.
    The curriculum developed and implemented at Tsehootsooi Dine 
Bi'Olta' addresses the challenging State academic content standards in 
the core subjects. These standards are taught through rich content in 
Dine culture and language. Benchmark assessments are used to measure 
student progress in Dine and English languages. The teachers developed 
assessments in the heritage language showed that these assessments are 
highly reliable and valid. Students do as well or better than their 
peers taught only in English. This information proves that students who 
are instructed in two languages have a positive effect on student 
academic achievement.
    Window Rock Unified School District #8 agrees with the goals of 
NCLB for Native American students. We do not make excuses but as a 
district and a school, we make every effort that students at 
Tsehootsooi Dine Bi'Olta' and students in the other schools in the 
district are provided with quality education to increase student 
success and performance with integration of language and culture into 
standards-based instruction.
    By learning and being instructed in two different languages, 
students develop higher order thinking skills (learning content) and 
develop a higher level of both Dine and English language proficiency. 
Students learn to speak, read, write and think in the Dine language--
ensuring the survival of the language for the future generations.
    For the past 3 years, Tsehootsooi Dine Bi'Olta' met Adequate Yearly 
Progress (AYP) where other schools in the district were inconsistent. 
This shows that the goals of NCLB are not incompatible with those of 
the local community that the school serves, nor are our communities 
goals incompatible with NCLB. The fact is that the educational goals 
for our children can be achieved by validating our educational needs--
to ensure the survival of the unique Dine culture and language.
    Tsehootsooi Dine Bi'Olta' is one of the four immersion schools in a 
nationwide longitudinal study of immersion students. Current data 
states that while there is a lag in achievement of primary immersion 
students, intermediate and secondary students not only reach the 
``meets'' level of performance, but often ``exceed.'' Additionally, 
initial studies have proven that none of the immersion students drop 
out of high school, but rather go on to pursue higher education 
opportunities.
    There are many challenges that the No Child Left Behind poses to 
our effort. Continued support is needed to provide cultural and 
linguistic-related educational programs.
    The lack of acknowledgement of the importance of the components of 
the Native American Languages Acts (NALA) policy is evidence in the 
State plans. However programs such as Structured English Immersion 
under title III is the only program of instruction for English 
learners.
    It is very difficult for school districts serving native students 
to find teachers who are fluent speakers and can teach in their native 
languages and also meet the Highly Qualified requirements. For the past 
year and again this school year and with plans to expand to grades 9-
12, teachers are teaching more than one subject area. Under the current 
requirements, teachers would have to be endorsed in the subject areas 
they are teaching along with the regular teacher certification.
    The immersion school in Window Rock Unified school district is the 
only one of its kind on the Navajo Nation. Other communities and public 
schools on the Navajo Nation and across Indian Country through the 
United States including Hawaii have the desire to revitalize and 
maintain their heritage language, however contrary State policies 
hinder their abilities to do so and/or limits what they can do. The 
Tsehootsooi Dine Bi'Olta' has been in existence for 20 years, operating 
for over a decade before the passage of Proposition 203. The program 
has enabled students to become proficient speakers of both Dine and 
English and as stated earlier have higher graduation rates and higher 
education success. Yet in our State, school districts required students 
to participate in Structured English Immersion if they come from a home 
where the primary language is other than English. Policies such as 
Proposition 203 devalue the learning of the Dine language. It sends a 
wrong message to parents and other stakeholders that the only way to 
succeed is through English. The educational performance of our students 
would not have been an issue today if knowing and speaking English were 
all that our students needed to succeed.
    The information provides us with enough evidence that support be 
given to culturally appropriate school systems that provide the 
opportunity for our children to become speakers and thinkers in their 
native language, a foundation that will lead to academic achievement.

    Senator Bingaman. Well, thank you very much.
    You might just pull that microphone a little closer, so 
people in the back can hear you.
    Ms. Gutierrez. Can you hear me now?
    Senator Bingaman. I think so.

STATEMENT OF BERNICE GUTIERREZ, TEACHER, WILSON MIDDLE SCHOOL, 
          ALBUQUERQUE PUBLIC SCHOOLS, ALBUQUERQUE, NM

    Ms. Gutierrez. Thank you for inviting me here, Senator 
Bingaman, to hear my testimony. I'm Bernice Paquan Gutierrez 
and I'm from the Pueblos of Laguna, Zuni, and Acoma. My clan is 
Turkey on my mom's side and Little Parrot on my father's side. 
I have raised three boys within the APS school system and 
they've all graduated.
    I was raised for 5 years in my Pueblo of Laguna where I'm 
registered and I was educated the rest of the time in 
Albuquerque, New Mexico. You could say I'm a Pueblo-urban 
Indian. I did not intentionally go into education. When I first 
graduated from UNM with a Bachelor of University Degree, I 
didn't know where I was going. And it wasn't until I got into 
the APS school system with the Indian Education Program, 21 
years ago, that I found my niche in the system.
    I went back and got my degree in Education from the College 
of Santa Fe and I'm currently working on my Master's degree. I 
have a ESL endorsement and a bilingual endorsement and reading 
endorsement, and I speak English and Spanish fluently and I 
understand my tailor language. I worked in APS so far, as a 
tutor, a mentor, a facilitator, and for the past 10 years, a 
reading teacher. I work in the largest school district in New 
Mexico. I have knowledge of urban students from all different 
Pueblos and Tribes within New Mexico and outside of New Mexico. 
And, it is a very divergent group.
    The essence of No Child Left Behind, in my eyes, is 
excellent since it is finally looking to those children that 
have always been left behind and which I was left behind at one 
point, but what I did was, I caught myself up. And it wasn't 
without the help of my family that that was done.
    There are many problems in the urban centers that we need 
to look to because I know they're also different from the ones 
out in the Tribal areas. And, one of the most important ideas 
within No Child Left Behind, is holding educators accountable 
for the education of our Native students, as well as all the 
other students that are being left behind.
    I am going to talk to the four main principles of No Child 
Left Behind. The first is, a greater accountability for 
results. All of the things I'm going to talk about are 
improvements or revisions that need to be done, because I 
really believe No Child Left Behind is our chance to get what 
needs to be done in education for our Native students. Greater 
accountability for results--one form of testing does not fit 
all students as, Senator Bingaman, you have said. Though No 
Child Left Behind needs to implement multiple forms of 
assessment to obtain adequate results, our Native students will 
perform better if we implement the following.
    We use multiple forms of tests: For example, portfolio 
assessments, surveys, project, presentations. We need to have 
assessments over a longer period of time. At our school, we 
only have 2 days and it's not sufficient time for Native 
learners that have a different learning style. We need to make 
accommodations for our students because, as we have 
accommodations for our ELL students, we do not have those same 
accommodations that we need for our own students. And those 
accommodations would be in language. Some of our kids are not 
proficient in English because they have a first language or 
they've heard their other language in their home, not 
necessarily speaking it, but even hearing a language will deter 
you from learning another language easily and readily.
    We need to make sure we have an accommodation in the 
perceived disability in which people think that, students think 
that, and teachers think that if a student finishes a test 
before everybody else, they're smarter. And that's not true. I 
encourage my students to take as much time as possible to take 
their tests so they will do better. My students, our Native 
American population at Wilson Middle School where I work, are 
the only ones of the minority populations that made AYP this 
year.
    Social-economic conditions need to be understood. As you 
said, poverty is very rampant among our students. And sometimes 
when a student has not had anything to eat, has had problems 
the night before, they didn't get to sleep because their 
parents were fighting, something was happening in their life, 
they're not ready to take a test. And that's only one point in 
a whole school year where you get tested and it's not going to 
show the best part of you.
    Cultural values.--Values of the Native American student are 
different than other values. Even though they may not have been 
raised in their own cultural environment, they still have ideas 
that their parents have passed on to them. And those need to be 
looked at and valued, not only by educators, but by everyone in 
education.
    Learning style.--Students have different learning styles. 
Our Native students have very different learning styles. We're 
very kinesthetic learners, we learn by doing things, we learn 
by visual prompts, and those aren't always done in the 
classroom. We need to look at assessments from a multiple 
intelligence standpoint. And, I explained that as being the 
kinesthetic learning styles.
    In the funding area, the second principle of NCLB, there's 
a need for availability of funding for the following, highly 
qualified teachers with a reading endorsement, not only coming 
out of college, but those teachers that are currently there. If 
you do not know how to teach a student reading, have a base 
reading background, you will reach only half of your students. 
You need to be able to teach reading while you're teaching in 
your content area.
    Highly qualified teachers and administrators trained to 
work with Native students.--We need to have administrators and 
educators culturally aware and sensitive to our students, not 
only our Native students, but to all students, all the other 
minority students we have.
    In professional development there should be some kind of an 
endorsement on a teacher's license that says they've had 
training in cultural awareness in the Hispanic culture, in the 
Asian culture, in the Black culture, in the Native American 
culture. They need to have that awareness because when they 
don't, they don't understand those students. And you need to 
know your students to be able to teach them.
    We need improved, appropriate, and increased facilities. In 
the urban setting schools, some teachers don't have classrooms. 
They work in the library, they float around, go to different 
classrooms. We need a separate place where we can teach our 
kids. We need materials, specifically for our kids.
    Literature.--We need to buy books that can be used in the 
classroom. We need to have an environment that is not 
detrimental to learning. I have been in environments where 
we've suffered through the cold, through the whole winter 
because there was not sufficient heating in the barracks. We've 
suffered through the summer heat because our air conditioner 
wasn't working. And that's not just myself, that's all the 
other teachers that are in the school system, when those things 
aren't taken care of right away.
    We need an increased number of Native teachers and 
administrators. I have tried to push as many of my students 
into teaching so that they could go on and to help their fellow 
students that are going to be coming up. We do not have enough 
teachers, Native teachers and administrators. And if that's one 
thing we can try and start, is some kind of program to get our 
students who are graduating into these kind of programs. I 
understand that there's going to be a backlog of not enough 
teachers within the next 10 years. And, we need to have those 
teachers out there to work with our kids.
    And the third principle of No Child Left Behind, parents of 
Native children. Parents need to be empowered by educators to 
be more effective in supporting their children, in meeting AYP 
through the following ways: If a school has not met AYP, our 
parents need to have the possibility of having transportation 
for their students to other schools--for example, the charter 
schools, a private school, another school that is making AYP--
in order for those parents to have choices. We need increased 
parent involvement in the schools through a communication 
system that the schools should set up to invite the parents in. 
Without knowing your parents, you're not going to know your 
students. We need to have multicultural concepts, which can be 
a resource through your parents. You can use story telling, 
crafts, history, language, careers, role-modeling, foods--all 
kinds of things that our parents are culturally aware of, they 
know their own culture, they can teach different kinds of 
things in the content area. For example, math, science, there's 
those kinds of things that our parents could probably teach 
pretty well.
    The fourth principle of NCLB, emphasis on the use of 
scientifically research-based proven effective teaching 
methods. The key to academic success of Native children is the 
utilization of proven, effective teaching methods where the 
teachers are the architects of their instruction. Since 2001, 
many curriculum programs have flooded the market, which are 
scientifically research-based and it is now the responsibility 
of educators of Native children to incorporate culturally 
relevant methods and strategies into their instruction. There 
is a need for Native American research and researchers. We need 
to look at what it is, and research, what Native students need 
and we need to also have Native researchers doing that. We need 
to look at teaching methods and see how we can teach our other 
non-Native teachers the methods that we use in our own 
classroom so that they can do the best that they can for our 
kids.
    When we look at No Child Left Behind, there are important 
factors, accountability for teaching our students and funding, 
which is a major factor in all of these things. Without the 
funding we can not implement these programs or have the results 
that we need. Involving Native American parents in the school 
system so they feel empowered, they feel it's theirs, they feel 
that they have part of their children's education under their 
control. And, using research-based teaching methods, which 
reach our children and many of the other minority children, so 
that we can improve and have a better No Child Left Behind 
policy.
    We don't want to go on and have anybody left behind. I was 
left behind and it was very hard for me. And, I was speaking to 
my sisters the other day. And we felt that, all the same way. 
We didn't fit in. And that's why I'm at the middle school now, 
because I want my kids to know they're going to fit in to the 
school system and this educational system and they're as good 
as anybody else.
    I want to thank you for the opportunity to let me speak, 
because my kids are my children. Thank you.
    [The prepared statement of Ms. Gutierrez follows:]

             Prepared Statement of Bernice Paquin Gutierrez

                      FOUR MAIN PRINCIPLES OF NCLB

    One of the most important ideas within NCLB is holding educators 
accountable for the education of our native students as well as other 
students.

1. Greater Accountability for Results

    One form of testing does not fit all students. The NCLB needs to 
implement multiple forms of assessment to obtain adequate results. Our 
native students will perform better if we implement the following:

    <bullet> use multiple forms of tests (portfolio assessment, 
surveys, projects, presentation, etc.)
    <bullet> assessment over a longer time period
    <bullet> accommodations for testing with the following factors:

        a. language
        b. perceived disability
        c. socio-economic conditions
        d. cultural values
        e. learning styles
        f. multiple-intelligence assessments

2. Funding

    There's a need for availability of funding for the following:

    <bullet> highly qualified teachers with reading endorsement
    <bullet> highly qualified teachers/administrators trained to work 
with native children
    <bullet> improved, appropriate, and increased facilities 
(classroom, materials, environment needs, etc.)
    <bullet> professional development
    <bullet> increase number of native teachers and administrators

3. Parents of native children

    Parents need to be empowered by educators to be more effective in 
supporting their children in meeting AYP through the following way:

    <bullet> transportation
    <bullet> increased parental involvement

        a. communication
        b. multicultural concepts: storytelling, crafts, history, 
        language, careers, role modeling, foods, etc.

    <bullet> use parents as resources
    <bullet> choice of programs (charter, local, and/or private 
schools, etc.)

4. Emphasis on the use of scientifically researched-based, proven 
effective teaching methods

    The key to the academic success of native children is the 
utilization of proven effective teaching methods where the teachers are 
the architects of their instruction. Since 2001, many curriculum 
programs have flooded the market which are scientifically researched-
based, it is now the responsibility of educators of native children to 
incorporate culturally relevant methods and strategies into their 
instruction.

    <bullet> need for Native-American research and researchers
    <bullet> teaching methods

    Senator Bingaman. Thank you very much for your excellent 
testimony and your commitment to your children, your students, 
and your service to education for many, many years.
    Our final witness is Samantha Pasena. Is that the right 
pronunciation? And Samantha is a student here, as I understand 
it, with Santa Fe Indian School, and is----
    Ms. Pasena. A recent graduate.
    Senator Bingaman [continuing]. A recent graduate. And, 
she's going to give us perspective from her experience here at 
the Santa Fe Indian School, as I understand it. Please pull 
that microphone over so everyone can hear your testimony, and 
go right ahead.

STATEMENT OF SAMANTHA PASENA, STUDENT, SANTA FE INDIAN SCHOOL, 
                          SANTA FE, NM

    Ms. Pasena. It is a great honor to represent a student's 
view on the No Child Left Behind Act of 2001. And, out of a 
sense of respect for this committee, I want to thank you 
Senator Bingaman, for being here today and coming to our home, 
the Santa Fe Indian School. I also want to thank you for 
allowing me to share my thoughts with you today.
    In preparation for my presentation, I spoke with our staff 
members, members of my community, and students. Their opinions 
about this legislation are included in my presentation. But I 
will also talk about points that are very dear to my heart.
    I respect the intention of this law, especially since it 
coincides with the directive given to the Santa Fe Indian 
School by our leadership, that all children--all Native 
American children--must be given a chance to learn. As one 
tribal official stated, ``They are our children. No child 
should go without education, for they are our future.'' I 
completely agree with this philosophy. Students do deserve more 
academic support. However, in reality, there are students that 
are neglected, academically.
    Though there are numerous points of this law that I find 
disturbing, I will only focus on three that I feel most 
passionate about.
    First, the implementation of the NCLB. The implementation 
of the NCLB allows each State to determine its own definition 
of annual yearly progress for AYP. In effect, this makes the 
BIA our State. As Native people, as Natives, we are forced to 
forsake our sovereignty by this action. The Santa Fe Indian 
School, under the Pueblo leadership should not be coerced into 
giving up its right to determine what is best for its children 
and, more importantly, what's appropriate.
    There is no recognition under the law of the previous 
history of Indian education. Our ancestors and leaders worked 
tirelessly to establish a school where Pueblo values would 
inform the education of their children. Laws were passed to 
ensure Native people of this right and yet, through the 
implementation of NCLB, we are forced to teach the same 
subjects at the same time as other schools, or risk our 
students being deemed not proficient. The BIA as our State made 
a decision for the school to use the New Mexico State 
definition of AYP without consulting our tribal leaders. In 
this way, the implementation of the law harms its Native 
students who wish to have their culture studied equally with 
the Western culture in our schools.
    Second, the implementation of the NCLB requires schools to 
make changes for the purpose of meeting law requirements, 
changes that require money, a great deal of money. Expenses for 
simply testing alone, is very costly. Nevertheless, there was 
not enough money allocated to meet these external demands. 
Consequently, schools are left with no choice but to divert 
funds from existing programs to defray the cost of requirements 
of the NCLB Act. For example, some schools are dropping 
physical education and other elective programs from the 
curriculum that have great interest and prove to be of 
importance to students. In my opinion, this is hurting our 
students because without health education, the health of our 
children will only continue to deteriorate, further adding to 
the national concern.
    Not having financial support could indeed counteract the 
intention of the law because limited course offerings would 
encourage students to drop out. Due to the lack of interest, 
students would ultimately leave. We would also lose valuable 
teachers because they're asked to do more with their existing 
low salary and unattractive benefits. The law can not demand 
more from schools, without the money to support its agenda, 
without damaging education the school was already offering.
    Third, I feel that the NCLB is a direct contradiction with 
the IDEA, Individual Disability Education Act. In order for a 
student to be recognized as needing special education services, 
there must be an identified learning disability that disallows 
a child from learning the same way at the same rate of others. 
NCLB demands that the special education students take the same 
tests of others with the exception of only 1 percent--for those 
identified as having the most serious cognitive disabilities, 
to take out of grade level tests.
    At our school, we have a high percentage of special 
education students, consistently around 14 percent. With this 
high percentage, as you can see, some special education 
students who should take out of grade level tests, are taking 
the regular tests, are forced to take the regular tests, 
obviously inconsistent with their disabilities.
    Two years ago, one special education student, after the 
second day of testing began repeatedly banging his head on the 
table, saying, ``I'm stupid, I'm stupid.'' What is more painful 
than watching this student's reaction, is knowing that a 
lifetime of inferiority has been lodged into his head and his 
heart as a result of this test. I can't help but feel deeply in 
my own heart that this law has, indeed, left him behind.
    Being that I plan to pursue a career in the health field, I 
feel that no Federal law should have the result of hurting 
children, for any reason. As Dr. Lyon, Chief of the Child 
Development and Behavior Branch of the National Institute of 
Child Health and Human Development stated, ``In some cases, 
we've got kids with disabilities that are being held to a 
standard they can not reach.''
    For these three reasons, I would respectfully ask you to 
consider changing this Federal law so it supports education 
rather than hurts its children. I hope that you, Hon. Senator 
Bingaman, will be one of those many individuals who will help 
us, who will help us so that our issues will be addressed and 
recognized. That way we can help the success of all our 
children. Thank you.
    [Applause.]
    Senator Bingaman. Thank you very much. Thank you very much 
for your excellent testimony.
    I think all of you have given very useful testimony to us 
here. And, lots of different subjects have been touched upon 
and discussed. Let me try to formulate a few questions that I 
can ask here.
    One obvious issue that several of you spoke about, I 
believe Governor Mountain, you began with it, is the issue of 
how we try to have some accountability to achieve standards 
that are recognized and still do it in a culturally appropriate 
way and in a way that strengthens the cultural education and 
the linguistic education of the school as well.
    Now, as I understood the testimony, I guess Ms. Benally, I 
think I understood your description of what you're doing there 
at your Immersion School. You are teaching students the Navajo 
language first. And, then you begin the English language 
instruction, so that K through second grade is concentrated on 
Navajo language. All the instruction is in Navajo, as I 
understand it. And, you're suggesting that the long-term 
result, I mean, by the time the student is at a certain age, 
the student does better in all subjects, not just in Navajo, 
but in English and in math and other subjects because of that 
model. Is that what your position was?
    Ms. Benally. Yes.
    Senator Bingaman. That's the way it's worked in your 
school.
    I didn't know, Governor Mountain, if you felt that more 
emphasis in the early grades on language training for, in the 
Native language and in cultural training would help students to 
do better in all areas in the future. Is that your view, as 
well?
    Mr. Mountain. Senator, I do believe that is a very valid 
statement by Ms. Benally and that it would serve the purpose 
very well, to put that focus in that area. And, I support that 
as a model and an example that we should follow and take a very 
serious look at, as leaders, to help in progressing the act.
    Senator Bingaman. OK.
    And, I guess Dr. Wright, you make the same basic point in 
your testimony, as I understand it also, as say one of the 
things we ought to be doing, as I recall your testimony, is 
that we should expand on title VII to address the unique 
cultural and education needs of Native children. That's the 
same basic point. Am I right there?
    Ms. Wright. That's correct. And if I could give you some 
key examples in our school. When we take a look at the math 
data, we have three types of cohorts in our students. First, is 
a traditional student that learns from easy, simple, to 
difficult. They're linear learners. The second group is quite 
interesting because they have some foundation skills, very 
little processing skills, but higher level thinking skills. And 
my third, which I think is more indigenous in thinking, do not 
have as strong a foundation or processing skills, but they have 
high analytical probability statistics data analysis skills. 
And so, what this is telling us, from the brain research, not 
having a written language--if I may use my arm, this is your 
brainstem and this is where No Child Left Behind does the 
cognitive thinking, math and reading in particular. But, 
there's this auditory part in our brain, but the new research 
engrain, is that this is the rest of the brain which is 
special.
    And, what we're showing now from the research is that 
language is embedded in the stem, in the auditory, and in the 
special. Previous research earmarked language learning in a 
more narrow focus. When you take a look at how our teachers 
teach, for example, in science. My teachers use the creation 
chant, Kumulipo, which is 2,000 lines. But for grades four, 
five, and six they use 200 lines. And, she takes the vocabulary 
of the chant in the Hawaiian language, circles all the 
vocabulary, and the kids go on the Internet and start drawing 
down all the pictures of the animals that show the 
specialization, then she begins teaching increased science.
    Its seamless, it merges. My science teacher in middle 
school, when the teacher had trouble teaching tectonic plates 
to the kids on earth science, he did a hula on transformation, 
you know, convergent, divergent, and the kids got it like this. 
And so, I have an assignment from my English teacher at home, 
it's all the grammar that children are struggling with. I said 
come up with a mele, which is a chant, a song, and a dance. 
It's looking at the total way of learning and these are the 
cultural indicators.
    Also, when our students learn, they help each other. In any 
other testing situation it would be called cheating, but our 
students Cacao, they pull together, they learn together, and 
they teach each other. And no child, when we were doing some 
testing assessments on our computers, no child left the 
classroom until the last student was finished. It's those 
cultural values that you're embedding in a child, so that when 
they graduate they know who they are, they know they're 
grounded in their traditions and language, and they're globally 
competitive.
    I think that's one of the most greatest advantages. I know 
NCLB has met many, many hurts, but one of, to me from my 
experience, the most wonderful asset of NCLB was global 
competitiveness. It makes our children competitive on a 
national and international level.
    Senator Bingaman. Well, thank you very much.
    Dr. Garcia, you have a very good list of recommendations 
for improvement in this law. One of the recommendations is that 
the Federal Government provide financial support to increase 
the school day and the school year for our neediest schools. I 
was just interested in your perspective on, really, how that 
would impact us here in New Mexico. Are there schools that you 
believe--would you go to a system where some schools would have 
a certain length of school day and school year, other schools 
would have a longer school day or school year because of 
certain factors that we would identify that would require that? 
What are your thoughts?
    Ms. Garcia. Well, let me give you an example, Senator. The 
legislature has funded a program called K-plus, Kindergarten-
plus, and we've received, we've begun to see really good data 
with students who had an additional 20 days before they started 
kindergarten. And, now that program has been expanded to K-3 
Plus, so those students get an additional 20 days before school 
starts to give them that extra push that they need to get them 
on a more level playing field.
    Senator Bingaman. And is that for each of those three 
grades or the four grades, kindergarten through 3?
    Ms. Garcia. It's the four grades, but schools apply to 
participate based on certain criteria. Primarily they've been 
in high-poverty areas because, again, one of the common 
denominators is poverty, in terms of students having the 
opportunity, many kids get the opportunity of public, I mean, 
pay for private pre-K or other kinds of enriching activities in 
the summer that, oftentimes, children of poverty don't have 
that advantage.
    Some of the students need additional support, in terms of 
tutoring after school. If we're going to keep the same 
framework, in terms of testing and so on, they need that 
additional advantage. We've also funded, for example, after-
school enrichment programs from the State level, but they don't 
go very far. That not only incorporates academics, but also 
enrichment activities. And again, language is a very important 
part of that enrichment, but it takes funding to be able to do 
that.
    One of the aspects of No Child Left Behind, I think that 
isn't there as we look more globally, how can we look at all of 
the resources that are coming from the Federal Government and 
how can they be used in a manner that helps address the issues 
of health and obesity, that impact learning. Not having 
adequate access to pre-K programs, when they come to 
kindergarten they're already behind other children. How can we 
help ameliorate those impacts of poverty?
    And the second piece, I think, is that we need--as we look 
at standards we say, ``well, Arizona made AYP or Hawaii made 
AYP or New Mexico made AYP, but we're all using a different 
yardstick.'' It's, and I'm not recommending a Federal standard 
by any means, but there has to be a better way of being able to 
communicate to our public how our schools and how our children 
are doing by a yardstick that's more meaningful than just, you 
made AYP or you didn't make AYP.
    Senator Bingaman. Let me just ask on that because, you 
know, in Washington and everywhere in the country everyone's 
very much in agreement that we don't want a national standard. 
At the same time, we've got quite a few States that have joined 
together to develop, essentially, a set of common standards. I 
think 29 States or some such group. I believe New Mexico is 
part of that.
    You know, just to play the devil's advocate, why don't we 
want to have some common standard that we can all look to and 
say, ``Look, if the people in Hawaii can meet this standard, 
why can't we meet it in New Mexico? And if the people in 
Arizona can meet it, why can't we meet it in New Mexico? '' 
What's wrong with that as a concept?
    Ms. Garcia. Senator, thank you for asking that question. 
And, I've asked the question myself because I was of the 
opinion at some point that you needed a national standard. I 
think there's a difference between national standards and 
Federal standards. And I think that a national standard that is 
created by the various groups that represent teachers and 
parents and organizations like Dr. Wright's and others, are 
important in coming together and then States choose to meet 
that. A Federal standard, depending on who's in office and 
who's determining those standards, I think could potentially be 
harmful to States. And, I think that's the distinction between 
a Federal and a national standard.
    Senator Bingaman. The idea of a common standard that we'd 
all agree, would be the right sort of knowledge and 
understanding that we would want students to have. For example, 
in mathematics, mathematics is not that culturally specific, or 
at least the way I think about it. Maybe I'm ignorant about 
that, but it would be good to say, here's a common standard. We 
would like 4th graders to be able to do the following 
mathematics or 8th graders or 12th graders. Is that what you're 
saying?
    Ms. Garcia. Senator, to some degree, yes. You know, we have 
de facto standards by the fact that we have the National 
Assessment of Educational Progress, the NAEP scores. And those, 
you know, not all students take them. Schools, States like New 
Mexico are over-sampled because of our high Native American and 
Hispanic population. And, they primarily test, they don't test 
every grade and every sample in the State. We are very aligned. 
Our content standards are aligned to that, to the NAEP, and I 
think you saw, probably, the report that showed the varying 
degrees and that's why when we look at AYP, it becomes 
meaningless as well, because of the standards being so 
different.
    On the other hand, how do we incorporate these cultural and 
linguistic differences and, even with mathematics, yes the 
computations may be the same, but if in the word problems, 
we're talking about something that a child has no language, no 
basis of understanding in language, there can be a cultural 
component even in the area of mathematics. And I think that was 
the reasoning behind NCLB to say, regardless of your language 
competence, you'd have to have math and English the first year. 
As I said in New Mexico, because our standards require 
constructed responses and a lot of writing and a lot of 
application, if you're not fluent and have academic language in 
English, you are at a distinct disadvantage.
    Senator Bingaman. OK.
    Let me ask Ms. Gutierrez, what, in your experience in 
teaching and trying to bring along the students that you have 
been successful with bringing along, how do you believe this 
issue of retaining and learning a child's Native language at 
the same time, help in becoming proficient in English. How do 
we best accomplish both of those goals? Because I think, at 
least my view is, we ought to try to accomplish both of those 
goals from the point of view of the student. When that student 
goes out into the workforce to make a living, the ideal thing 
would be to have them be fluent in English, be fluent in their 
Native language, have a very good sense of themselves and their 
native culture, but also have the skills they need to succeed 
anywhere. How do you think we best achieve those goals?
    Ms. Gutierrez. I look at it from a bilingual standpoint. 
Knowledge of your first language gives you the background and 
the esteem to be able to go on and learn a second language. 
And, the basis of that first language helps you to learn the 
second language a lot better and internalize that language. It 
is an advantage to be able to speak two languages. And, it 
helps you to learn in two different ways, because thinking in a 
Native language is different than thinking in the English 
language. As I have difficulty doing when I switch from English 
to Spanish, to hearing my own language.
    Bilingual classrooms need to actually be implemented in the 
schools, especially for the higher number of students, 
especially Navajo students in our classrooms, because they're 
the ones that really fall far behind when it comes to literacy. 
Because I can see that their language, which they haven't 
completely mastered yet, because they've been taken out of 
their school and moved to the urban setting, they haven't 
mastered it yet so they don't have the real strong background 
they need in that language to be able to take on the English 
language and so they falter. If we can take our languages that 
are written now and try and incorporate them into our schools 
with the language component, bilingual component, I think it 
would help our kids a lot.
    Because the second language learners that speak Spanish 
have that opportunity and our students don't a lot of times. 
And then, we need to make sure that the teachers that we hire 
to do that are trained in the teaching methods of that 
language, because you can't just teach somebody a language 
unless you know some teaching methods to get that done with.
    Senator Bingaman. Let me ask Ms. Pasena, I appreciate your 
testimony very much. Could you give me some insights on one 
issue that I seem to see in the testimony, some here, but 
elsewhere on some of our earlier hearings in Washington. The 
challenges that students face are very different, whether 
they're male or female. And, the dropout problem seems to be 
much worse for young men than it is for young women, at least 
the statistics indicate that, that more young women stay in 
school long enough to graduate than young men, particularly 
among the Native American students. Is that something that you 
have had any chance to observe among the students that you were 
with? Is there a reason? Is there something we could be doing 
to help young men stay in school in larger numbers?
    Ms. Pasena. During my years at the Santa Fe Indian School, 
I did notice that there were some boys, particularly, that did 
drop out of school or left for a number of reasons. Like, 
there's--how could I say this--there are numerous amount of 
reasons for each child to leave, particularly home, home 
lifestyle. Like they were saying, if something happens at home, 
poverty, all of those things. But to determine one particular 
reason or one straightaway answer, I think it really, you have 
to look in the background of that child. There's no real reason 
to say, ``OK, boys you stay in school. We have all this for you 
here.''
    Senator Bingaman. So, no real----
    Ms. Pasena. No real basis.
    Senator Bingaman. Yes. I understand. A main thrust of your 
testimony was that we need to be more realistic about what we 
are requiring with regard to special education students. You 
think that the act, as it's currently administered and 
implemented and written is not realistic in that regard. And, 
that is a major problem that we have to change?
    Ms. Pasena. I see it as unfair because, as a Gates Scholar, 
me testing here and then a special ed student with severe 
cognitive disabilities, who's not able to take that out of 
test, out of grade level test because he's not part of the 1 
percent. I don't see it as fair as forcing him to take that 
test for the AYP and in the end, not have it affect our school 
negatively. Because, in the end, when you're looking at the 
test results, they're all combined into one.
    And whether or not your school is exceeding because our 
school of 14 percent, that really brings our level pretty low. 
I don't see, like you said, that's realistic. I think the 1 
percent should be increased to meet the needs, whatever that 
may be at the school. So that way, your school can--the test 
results and the level of progress in your school can be 
measured fairly.
    Senator Bingaman. I understand your point very well. Thank 
you very much.
    We could go on for another couple hours, but I know you've 
been very generous with your time and this has been useful 
testimony. We can take the suggestions that you've given us 
here and work with those in Washington. And I think this will 
be helpful in our deliberations on how to rewrite this law to 
make it more workable. That's obviously our goal.
    Dr. Wright.
    Ms. Wright. If I may say one closing comment, Senator? I 
would like to invite you or a member of your staff to Hawaii in 
October where the National Indian Education Association will be 
holding its conference--Alaska Native, Native American Indians, 
and Hawaiians. We predict over 3,000 people attending the 
conference, but you will see exemplary models of what we've 
been talking about today. How culture and language help our 
people know who they are, but also how we embed English, 
French, Spanish and all the other languages that help our 
children succeed in higher ed. I think, perhaps, you might want 
to send one of your staff members to come see.
    Senator Bingaman. It's probably going to be hard to 
persuade any of my staff to go to Hawaii.
    [Laughter.]
    But I'll work on it, see if we can persuade any of them.
    Let me mention, since you did, Michael Uden who is here at 
the front desk with me. He works with me on education issues in 
Washington and he was very instrumental in helping organize 
this hearing. And, he's working on this No Child Left Behind 
issue very much. Chris McKeno, who works with me here in Santa 
Fe, has also been very helpful on this. He's at the back of the 
room and I hope you all are acquainted with Chris. Jude 
McCartin who's over here, she works with me in Washington on a 
whole range of issues also.
    I think this has been useful. Thank you all for 
participating and again, thank you Joe, for letting us have 
this hearing here at the Santa Fe Indian School, which is a 
wonderful school that we want to see continue to succeed in the 
great tradition that it has developed.
    That will end our hearing. Thank you all for coming.

    [Whereupon, at 11:12 a.m. the hearing was adjourned.]


</pre></body></html>
